<html>
<title> - CONSIDER PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 110-1102]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1102

                      CONSIDER PENDING NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

THE PENDING NOMINATIONS OF KRISTINE L. SVINICKI, TO BE A MEMBER OF THE 
    NUCLEAR REGULATORY COMMISSION AND LYLE LAVERTY, TO BE ASSISTANT 
   SECRETARY FOR FISH, WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR


                               __________

                             JULY 17, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
61-976 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.













                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 17, 2007
                           OPENING STATEMENTS

Warner, Hon. John, W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     1
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......     3
Boxer, Hon. Barbara, U.S. Senator from the State of California...     6
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     8
Voinovich Hon. George, V., U.S. Senator from the State of Ohio...    12
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    13
.................................................................

                               WITNESSES

Svinicki, Kristine, L., nominee for Member of U.S. Nuclear 
  Regulatory Commission..........................................    13
    Prepared statement...........................................    15
    Responses to additional questions from:
        Senator Boxer............................................    16
        Senator Lautenberg.......................................    17
        Senator Cardin...........................................    17
        Senator Voinovich........................................    18
Laverty, Lyle, nominee for the position of Assistant Secretary 
  for Fish, Wildlife and Parks, U.S. Department of the Interior..    19
    Prepared statement...........................................    21
    Responses to additional questions from:
        Senator Lautenberg.......................................    23
        Senator Boxer............................................    23
        Senator Lieberman........................................    28
        Senator Cardin...........................................    29
        Senator Inhofe...........................................    30
        Senator Voinovich........................................    31
Survey Summary, U.S. Fish & Wildlife Service, Union of Concerned 
  Scientists.....................................................    41

 
                      CONSIDER PENDING NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 17, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Whitehouse, 
Warner, Voinovich, Isakson, Craig, and Barrasso.
    Senator Boxer. The committee shall come to order. I am very 
pleased to welcome one of the senior members of this committee, 
a great Senator, John Warner. I thought, just given your 
schedule, Senator, before other Senators speak, I would love 
for you to introduce Kristine to the committee.
    Senator Warner. Thank you, Madam Chairman. Perhaps the 
distinguished Ranking Member might like to make a remark or two 
and then I will proceed.
    Senator Boxer. All right, well, it was his idea to say you 
should go first.
    [Laughter.]
    Senator Inhofe. It was my idea, I thought you might want to 
join us up here in your regular position. Since Kristine was a 
staffer for you, I understand, as well as for Senator Larry 
Craig, I knew you had some comments you wanted to make and this 
might be a good time to go ahead and do that, if you would 
like. I am sure Senator Craig will want to make a comment or 
two about Ms. Svinicki also.
    Senator Boxer. Senator Warner, please.

    STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Madam Chairman.
    I am extremely pleased to be here this morning. All of us 
have these opportunities. This one I particularly look forward 
to, because this is one of the extraordinary persons that I 
have been privileged to serve with my now 29 years here at the 
U.S. Senate. She was on the staff of the Armed Services 
Committee following service with our distinguished colleague, 
Senator Craig, for well over 2 years. She is also a resident of 
my State, and for that reason, in addition to her career, I am 
happy to be here.
    She was a senior policy advisor to Senator Craig. I 
interviewed her at that time for the position on our staff. 
Senator Craig warmly endorsed her and it all worked out 
extraordinarily well. Not well known in some quarters, but the 
Armed Services Committee has jurisdiction over approximately 
two-thirds of the budget of the Department of Energy, including 
the very sizable nuclear weapons production sites and 
laboratory complex as well as the extensive environmental 
program to clean up the legacy of nuclear contamination created 
during the cold war era. These are programs which we engaged 
Kristine to work on with our staff.
    With her extensive background and experience in nuclear 
matters, both at the Department of Energy and subsequently in 
her work in the Senate, she ably discharged her 
responsibilities, very, very ably, I might say. Her service has 
been appreciated not only by me, but by the other members of 
the Armed Services Committee, including our distinguished 
Ranking Member of this committee.
    I recall the first interview with this outstanding nominee. 
She informed me a little bit about her family, and I would like 
to mention that, because it strikes me as the very pillars of 
the foundation of our great Nation, what her family did. Her 
grandfather had come from their native country of Slovakia in 
the early part of the last century. He worked off the cost of 
his passage in the iron mines of Michigan's upper peninsula. He 
saved up enough money to bring his wife and daughters to 
America, and Kristine's father was born in this country after 
the family was reunited in Michigan.
    Ms. Svinicki's father served with distinction in the Army's 
Fifth Infantry Division in Europe during World War II, earning 
two Bronze Stars for distinguished valor in combat. The service 
secured for him the opportunity to attend college under the 
G.I. Bill, the first in his family to do so.
    I mentioned to the nominee when she greeted me this morning 
that I was going to tweak her a little bit. In these 2\1/2\ 
years, I expect you have been in my office probably 30 or 40 
times. On the wall is a picture of my father, who served in 
World War II, likewise wounded and decorated--excuse me, in 
World War I. He served in the Fifth Division, and you never 
told me about the story of your father having succeeded my 
father in the Fifth Division.
    [Laughter.]
    Senator Warner. Now, following in her father's footsteps, 
she went on to college, choosing to major in nuclear 
engineering at the University of Michigan. I inquired of her 
during the first interview as to why she would have majored in 
nuclear engineering in college. I recall that she commented to 
me that because she had lost both of her parents when she was 
still quite young, a teenager, she had wanted to honor their 
memories by cherishing the value they held highest, which was 
education in the sciences.
    Madam Chairwoman, members of the committee, this is a very 
able nominee of the President. I urge the committee to confirm 
this nominee and send her name to the floor, where I will be 
privileged to once again address the Senate on your behalf. 
Good luck.
    [The prepared statement of Senator Warner follows:]
        Statement of Hon. John W. Warner, U.S. Senator from the 
                        Commonwealth of Virginia
    Madame Chairwoman, I am pleased to introduce to the Committee the 
nominee to serve as Commissioner of the Nuclear Regulatory Commission--
Ms. Kristine Svinicki (Suh-ven-e-key). Ms. Svinicki is both a long time 
resident of my State, and a staff member on the Senate Armed Services 
Committee, which I have had the privilege to serve on for over 28 
years.
    I was first introduced to Ms. Svinicki, then a Senior Policy 
Advisor for Senator Larry Craig, when I interviewed her for a position 
on my Armed Services Committee staff in December of 2005, as I needed 
someone to take on the nuclear issues for the committee after the 
departure of another capable staff person.
    It is not well known in some quarters, but the Armed Services 
Committee has jurisdiction over approximately two-thirds of the 
Department of Energy--including the very sizable nuclear weapons 
production sites and laboratory complex, as well as the extensive 
environmental program to clean up the legacy of nuclear contamination 
created during the Cold War. These are the programs which I hired 
Kristine to staff. With her extensive background and experience in 
nuclear matters both at the Department of Energy and subsequently in 
her work here in the Senate, she has ably taken on this challenge. Her 
service has been appreciated by not only me, but the other members of 
the Armed Services Committee--on both sides of the aisle.
    I recall in that first interview that I asked Ms. Svinicki about 
the origin of her last name. She informed me that her grandfather had 
come to this country from his native Slovakia in the early part of the 
last century and that he had worked off the cost of his passage in the 
iron mines of Michigan's upper peninsula. He saved up money to bring 
his wife and daughters to America, and Kristine's father was born in 
this country, after the family was reunited in Michigan.
    Ms. Svinicki's father served with distinction in the Army's Fifth 
Infantry Division in Europe during World War II earning two bronze 
stars for distinguished valor in combat. His service secured for him 
the opportunity to attend college under the GI Bill, the first in his 
family to do so.
    Following in the her father's footsteps, Ms. Svinicki went on to 
college, choosing to major in nuclear engineering at the University of 
Michigan. When I inquired with Kristine, during that first interview, 
as to why she would have majored in nuclear engineering in college, I 
recall that she commented to me that because she had lost both of her 
parents when she was still quite young--a teenager--she had wanted to 
honor their memories by cherishing the value they held highest--which 
was education.
    Madame Chairwoman, Kristine Svinicki will be a favorable addition 
to the Commission and she has my full support. It is my hope that both 
the committee and the Senate will move favorably and quickly to approve 
her nomination, as the seat she is nominated to fill is currently 
vacant and I believe we all support having a Commission at full 
strength (of five commissioners).

    Senator Boxer. Thank you so much, Senator Warner.
    Senator Craig.

 STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Madam Chairman, thank you very much. I have 
the unique opportunity this morning of being amongst friends on 
both sides of me here, and very talented people. But I am here 
specifically to introduce you to Kristine Svinicki, who, as 
Chairman Warner has said, served on my staff as a senior policy 
advisor for 7 years prior to going to the Armed Services 
Committee. You have heard a good deal of her background.
    I must tell you, when you can get the support of the 
diversity of a Craig, a Warner and a McCain in your person, I 
think that speaks fairly highly, because we are all very 
different people around here. But I would like to approach her 
nomination to you this morning, Madam Chairman, in this way. I 
don't know of another time in our country when we need on the 
Nuclear Regulatory Commission some very unique talents.
    As you know, from the establishment of the Energy Policy 
Act of 2005 until today, when there was not one nuclear reactor 
on the drawing board, there are now some 35 or 37. Clearly, for 
this country to get back into the business of building nuclear 
generating reactors, in a way that our country and our economy 
demands it, we are going to need a very strong Nuclear 
Regulatory Commission. The personalities that make up the 
Commission, I believe, are going to have to be multi-task 
capable.
    What do I mean by that? They are going to have to have 
background in the nuclear energy industry itself, they are 
going to have to have knowledge of it. They are also going to 
have to have knowledge of the public policy that we have shaped 
to drive that industry at the rate that it appears to be driven 
today. The new concepts of licensing that we are trying to 
perfect, not unlike other countries around the world have, that 
bring us back into this business, are going to be tremendously 
important. Kristine brings that uniqueness to the Commission. 
She has worked here on the Hill, she has worked in policy, she 
has helped shape a good deal of that policy while she was with 
me before she went over to the Armed Services Committee with 
Senator Warner.
    All of those experiences, I think, are very unique 
combinations that make her a highly qualified person. So when 
the President nominated her, I was, to say the least, very 
pleased and excited. Sure, to have somebody who had been on my 
staff is a pleasing kind of thing. But I have been under the 
evil eye of Kristine for a long while.
    [Laughter.]
    Senator Craig. Maybe that is a better way of saying it. No, 
no, I mean the very instructive, clear-thinking eye of Kristine 
for a long while, who would say it the way it was in a very 
frank and forthright manner, in a way that was always 
appreciated by me while she was working with me on the 
committee and on my personal staff. So when I look at those 
combinations, and having been somebody that has helped shape 
the policy that is now driving us in a direction that takes us 
from the 104 commercial reactors that are out there today that 
she would have immediate jurisdiction over and the 4,000-plus 
licensees that handle radioactive materials in our country. But 
to take it a step further and into a whole new generation is 
going to take the uniqueness of talent that I think Kristine 
has, has demonstrated to me and is a blend of those 
experiences.
    So I speak very highly of her to this committee and hope, 
as Senator Warner does, that we can handle her expeditiously 
and take her to the Senate desk for our consideration.
    Last, let me say that my experience with Lyle Laverty, who 
sits to my immediate left here, as the Assistant Secretary for 
Fish and Wildlife and Parks, has been a tremendously positive 
one over the years. I don't know of anyone who brings to this 
nomination the credentials that Lyle has. I highly recommend 
him. He and I worked on the Continental Divide National Trail 
System. We have worked on fire issues over the years. The West 
is burning today, maybe you ought to be out fighting fire, 
Lyle, and not here in front of this committee. But it is the 
nature of the process.
    So I certainly can recommend both of these people with 
their skills and their talents to this committee without 
reservation. Again, I feel very privileged to be here speaking 
on Kristine's behalf as it relates to the position she is 
aspiring to. Thank you, Madam Chairman.
    Senator Boxer. Well, Senators Craig and Warner, thank you 
so much. Kristine, you must be so honored. You have two just 
really notable Senators who have just spoken so beautifully of 
you. You should be very, very proud.
    I want to talk to both my colleagues here for a minute. You 
can all listen in on where I see we are in this whole 
situation.
    Senator Reid has a great interest, Senator Craig and 
Senator Warner, of course, in what happens on the NRC. We all 
do. He is particularly concerned because of Yucca Mountain. You 
all know that, regardless of where we stand, it is in his State 
and Senator Ensign's State. Now, he has been trying to get Greg 
Jaczko renominated by the President since April. My own belief, 
because I want to get this done, is I'm looking at a pairing 
here, because Greg Jaczko has been on there and Harry Reid 
feels very strongly.
    The reason there was a little give and take on-off in where 
we were going is that I decided I am excited about this nominee 
too, and I want to give her her chance, and I want to get her 
on there with you. But I also understand the fact that in this 
Commission, we just need some balance here. So I think we have 
the makings of making this happen really quickly, if you can 
help me with the White House, because we have not, as I 
understand it, heard a word back since Harry Reid made this 
renomination in April.
    So I, just because, in the interest of openness and 
fairness and honesty, I want you to know that this would be 
very helpful, if we could get both of these good people 
together. So I wanted to say that.
    Senator Craig. Madam Chairman----
    Senator Boxer. I will be happy to yield.
    Senator Craig. If you would, please.
    Senator Boxer. I would be happy to.
    Senator Craig. I am simply seeking instruction from you as 
to how we proceed here----
    Senator Boxer. Yes.
    Senator Craig [continuing]. With Ms. Svinicki's nomination. 
How would you plan to handle that, hold a hearing? Would you 
plan to move her, if it is the desire of the committee, to the 
full Senate committee?
    Senator Boxer. Yes.
    Senator Craig. With the understanding that she would not 
move until the other issue were resolved, or what is your plan?
    Senator Boxer. Well, I want to work with you. I want to 
work with Senator Warner, I want to work with Senator Inhofe, 
Senator Voinovich, if he is interested in this, and Senator 
Reid.
    Senator Craig. Sure.
    Senator Boxer. I want to do this in a way where everybody 
wins this thing. Because I have absolutely no interest in 
delaying 1 minute on this nomination.
    But the reason I wanted to have this hearing today was to 
get us started. We will all work together to determine how we 
will do this. Now, as I say, Senator Reid made this nomination 
in April. Mr. Jaczko isn't up for a while, but there is 
precedent for this in many cases in the past. This is so 
important to Senator Reid that I think we need to work with 
him. There is no reason why we can't make this all happen.
    This isn't anything that I consider to be that unusual. We 
have had situations before where both sides work together. So I 
wanted to get that out on the table.
    Senator Craig. I appreciate your work.
    Senator Boxer. I have every interest in getting them both 
done as quickly as possible.
    Senator Inhofe. Madam Chairman?
    Senator Boxer. Yes.
    Senator Inhofe. I am sorry I was out of the room when this 
conversation started. I guess I overheard that somehow this 
might be paired with Jaczko who, it is another year before he 
even comes up. Is there precedent for that?
    Senator Boxer. Yes.
    Senator Inhofe. I do not recall that.
    Senator Boxer. Yes, there is--we will give you the 
precedents in writing. We don't have them in writing right now, 
but we will give you the precedents in writing for that.
    Senator Inhofe. OK. I just think that, on behalf of the 
minority, it is a very, very significant position that needs to 
be fulfilled, and we have such a quality individual. I would 
hate to see that happen.
    Senator Boxer. Well, we don't intend to hold up either of 
them. I am just trying to work with the White House and with 
all of you so that we can get this done. That's the facts. I am 
the kind of chairman that, I want to be totally open with 
everybody. Because what happens on these commissions, as you 
know, is that we have diversity on these commissions. Senator 
Craig made a point, that Kristine has worked for him and John 
Warner and John McCain, and it has made every--it says a lot 
about you that you can do that.
    Well, these commissions also have different points of view 
on them, and it is very important to Senator Reid. Senator Reid 
was once chair of this committee and gave it up to go into the 
leadership. He is very interested in this NRC as is Senator 
Ensign.
    So in any case, here is what I intend to do. After we have 
this hearing, I hope we can huddle on the floor with Senator 
Reid and figure out a way to move all this and get it done. But 
let me make my opening statement, because these two positions 
are so important to all of us. So let me put out a few 
concerns, not about the individuals but about the issues you 
will face.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Today the Senate Committee on Environment 
and Public Works meets to consider the nominations of Mr. 
Laverty and Ms. Svinicki to be Commissioner for the Nuclear 
Regulatory Commission and Mr. Laverty, Secretary of Interior 
for Fish, Wildlife and Parks.
    Mr. Laverty, the position to which you are nominated is so 
important, and I understand you are a California native. So I 
welcome you. As you know, California is a State rich in 
biodiversity sand stunning natural beauty. I hope, if you are 
confirmed for this position, you will always remember what is 
at stake for California and all of America's natural treasures. 
Because truly, Californians and all Americans live in a Nation 
blessed with spectacular public lands and a rich array of 
wildlife, which I consider to be God-given, and it is our role 
to protect.
    Yet despite the richness we have been given, we have seen 
an unprecedented assault on our Nation's wildlife laws, 
conservation system and the science that underpins them. From 
silencing scientists to gutting our successful conservation 
laws to underfunding our public lands, I believe there have 
been many occasions where this Administration, and this is my 
view, I certainly don't speak for anybody else who is here 
presently, is breaching the public trust owed to America's 
natural heritage, instead of honoring its duty to serve as 
effective stewards.
    Indeed, in April of this year, the then-Deputy Assistant 
Secretary for Fish, Wildlife and Parks, Julie McDonald, 
resigned following an investigative report of the Inspector 
General of the Interior Department. In that report, the 
Inspector General revealed, among other things, how that 
official leaked non-public information to special interests 
that had a stake in the outcome of the Fish and Wildlife 
Service decisions.
    The IG report also describe how this senior official, and 
these are the IG's words, ``got into the face of'' Fish and 
Wildlife Service personnel over their 5-year Endangered Species 
Act reviews. This kind of bullying of career scientists and 
policy experts cannot be tolerated.
    Additionally, recent news reports have documented how the 
Vice President personally intervened in the important 
Endangered Species matter. Reportedly, he rode roughshod over 
the process and the expert opinions of Department scientists in 
order to influence the decision on the water flows to the 
Klamath River, something I am sure you are aware of, and I am.
    As a result of this political intervention, the Department 
reportedly reversed course, and thousands of salmon died on the 
Klamath. We will never forget those pictures. This ecological 
disaster greatly affected our fragile rural economies that 
depend upon those species for commercial and recreational 
fishing business and related industries in the State of 
California and the Pacific Northwest.
    There are similar reports of White House officials editing 
EPA's scientific documents about global warming. I feel very 
strongly that the Government must honor the science and not let 
politics override the facts. It is fine for politicians like 
any one of us or the President or the Vice President to simply 
say after they see a scientific report, you know what, that may 
be so, but I think it will hurt the country if this happens, 
but not to try and interfere in the report itself.
    We must recognize, as hundreds of the world's leading 
scientists on the U.N. Governmental Panel on Climate Change 
recently found, that 40 percent of the planet's species are at 
risk of possible extinction from global warming. We had a 
scientist sitting right in your chair, and said that to us. Mr. 
Laverty, I was stunned when she said that. It is a staggering 
thought, and one of the most important issues, Mr. Laverty, 
that you will have to face if you are confirmed.
    In this position, you will be thrust into the middle of 
many crucial challenges and clashes between science and 
politics. All I ask you to do is let us see the science. We 
will deal with the politics. We have to, we will. But let us 
see the science. We must use the best science to protect our 
rich, God-given heritage. We owe it to our children and our 
grandchildren.
    Ms. Svinicki, the NRC has so many important issues to be 
considered. I feel after I have heard from your two colleagues 
that you are very well prepared to face any of them. One key 
issue facing the NRC is nuclear waste disposal and plans to 
transport it to Yucca Mountain. Protecting the public health is 
so crucial, and in my view, Yucca fails the test. My State of 
California is one of the most affected by the Yucca Mountain 
project, which is only 17 miles from California's border. 
People forget that.
    Studies have shown that the groundwater under Yucca 
Mountain flows into Death Valley, one of the hottest and driest 
places on Earth. If radiation should contaminate this 
groundwater, it would be the demise of the national park and 
the surrounding communities.
    The threat posed by the nuclear waste transport is also 
clear, and I would ask for another minute and would happily 
give it to Senator Inhofe. The threat posed by nuclear waste 
transport, over 7.5 million people live within just a mile of a 
possible nuclear transport route. Yucca's geology remains a 
concern.
    So I will put the rest of my statement in the record about 
Yucca. I would say also, I would close with this one issue. The 
GAO recently completed a sting operation in which the NRC 
issued a materials license to a fake corporation in West 
Virginia. Once GAO received the license for their fake company, 
they altered it, so it appeared that the company was allowed to 
receive an unlimited quantity of radioactive sealed sources, 
rather than the small amount that had been approved by the NRC. 
After altering the license, GAO was able to receive commitments 
from suppliers of Category 3 sealed radioactive sources to 
provide more than 10 times the materials the original license 
would have allowed.
    I have serious concerns about the NRC's ability to ensure 
that these licenses are not going to individuals who want to 
attack us. I understand that there is a delicate balance 
between ensuring that legitimate users, like hospitals and 
construction companies, they get what they need. But certainly, 
we need to do a lot better.
    So I am going to ask you a couple of questions about that. 
But again, having worked for Senator Warner, whose life has 
been dedicated to national defense, I have a feeling you will 
be diligent on that.
    So thank you very much, both of you. I wish you the best of 
luck and I will turn the microphone over to Senator Inhofe, 
with additional time.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. That is fine. Thank you, Madam Chairman. I 
do appreciate it.
    I guess I will direct this opening comment at Mr. Laverty. 
I too am one who will be looking into science all the way 
across. It is kind of interesting when those individuals who 
really want to believe that anthropogenic gases cause climate 
change, when the evidence now from the recent scientific 
community refutes that, and that natural variability is causing 
it, it is kind of interesting, you see panic on the other side. 
People like Claude Allegre, who was one of the strongest 
supporters of anthropogenic gases causing climate change, from 
France, perhaps considered by some to be the top scientist in 
France, now saying, I was wrong, he is saying that these are 
other causes and we need to reexamine. The same with David 
Bellamy from the United Kingdom, the same with Nir Shariv from 
Israel.
    So we have literally hundreds of scientists who totally 
refute that any dramatic change is due to the release of man-
made gases. Also, I would say that while I consider the 
Chairman to be a very close personal friend, we joke around a 
lot with each other, I do not agree with her characterization 
of the Administration and their performance.
    I am pleased we are holding a nomination hearing today. 
This committee has a longstanding bipartisan tradition of 
considering nominations in a timely fashion. Nominees, I say to 
my good friend Senator Craig, have historically been given an 
up or down vote by the committee the week following the 
hearing. I am sure Senator Warner will remember that has been 
the tradition of this committee, and I am hoping we will be 
able to do that.
    The first nominee before us is Lyle Laverty, who is being 
considered for the Assistant Secretary for Fish, Wildlife and 
Parks at the Department of Interior. Mr. Laverty has a long, 
distinguished record of resource management, which has well 
prepared him for this position. He has actually had 35 years as 
a career employee at the U.S. Forest Service, and then more 
recently serving as the director of the Colorado State Parks. 
So I can't think of anyone in America today, anyone, who could 
be as qualified as Mr. Laverty.
    The second nominee today is Kristine Svinicki. I have no 
doubt that she will be an excellent commissioner at the NRC. 
She has proven herself to be knowledgeable on technical matters 
and also possesses a deep understanding of policy issues. If 
that is not enough, Senators Craig, Warner and others, she has 
been in a top notch position with them and they are happy to 
give support to her.
    Ms. Svinicki, you and I discussed my belief that our Nation 
needs new nuclear plants to help meet our growing demand for 
energy. Revitalizing this industry is a complicated effort and 
the NRC's role in ensuring public health and safety in 
protecting the environment is an integral part. Safety first 
isn't just a cliche, it must be the top priority. However, the 
NRC must also carry out its responsibilities in a predictable 
and efficient manner. Balancing these objectives will be quite 
challenging for the Commission to consider in the growing 
number of applications for new plants it will receive over the 
next few years.
    I think we have for now, I guess 12 years, my personal 
experience on this committee, we have talked about the fact 
that we can't really resolve the energy crisis in this country 
without a big nuclear part. Certainly, you have the credentials 
to address that.
    Madam Chair--oh, you can stay there, I just want to be sure 
you are listening to my opening statement here. They talk about 
the, Madam Chairman, the outrage over the allegations that a 
DOI political released internal documents to industry groups, I 
think specifically the Farm Bureau. The fact is, I remember so 
well back in the late 1990s, just this past March, Fish and 
Wildlife career staff leaked a draft ESA regulation to the 
media, then circulated by the Center of Biological Diversity.
    In 2005, a draft of the National Park Service management 
policies were leaked. I didn't see or hear all the outrages 
about that. The DOI Inspector General report of 1998 and 1999 
oil leases was released to The New York Times 2 days before the 
IG was to testify. The released document, the decision to 
propose listing the polar bear, appeared first in The 
Washington Post before officially released by the Department. 
So those leaks have been occurring over a period of time. By 
the way, I don't know what your order of things would be, Madam 
Chairman, but we have our newest member, Senator Barrasso, 
here, and I would like to have an opportunity to welcome him. 
Could I do that at this time?
    Senator Boxer. Absolutely.
    Senator Inhofe. OK, Senator Barrasso, there is no one, as 
you have heard so many times since you have been here, who is 
more loved than your predecessor, Craig Thomas and his tenure 
on the committee. Alan Simpson actually also served on this 
committee, and Senator Barrasso joins us after having served as 
Chairman of the Transportation, Highway and Military Affairs 
Committee in the Wyoming State Senate. I am sure your 
contribution to this committee will be most valuable.
    Under Republican Senate rules, Madam Chairman, since 
Senator Barrasso selected this committee as one of his first 
two choices, he will be seated in seniority between Senators 
Vitter and Craig. As far as subcommittee assignments, that 
isn't clarified yet. I will want a chance to visit with all of 
our members, our Republican members, which is the ones that 
would be concerned with this, so we can kind of get that 
resolved. But we did have a reading from Dave Sharp that showed 
that your seating here in terms of seniority is proper, and we 
welcome you, Senator Barrasso, to this committee.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    I'm pleased we are holding this nominations hearing today. This 
committee has a long-standing, bipartisan tradition of considering 
nominations in a timely fashion. Nominees have historically been given 
an up or down vote by the committee the week following their hearing. I 
hope the Chairman continues this tradition and schedules a business 
meeting to consider these nominees next week.
    The first nominee before us is Lyle Laverty, who is being 
considered for the Assistant Secretary for Fish, Wildlife, and Parks at 
the Department of the Interior. Mr. Laverty has a long and 
distinguished record in resource management which has prepared him well 
for this position. This experience includes 35 years as a career 
employee of the U.S. Forest Service and most recently serving as 
Director of Colorado State Parks for 6 years.
    The second nominee before today is Kristine Svinicki, and I have no 
doubts that she be an excellent commissioner at the NRC. She has proven 
herself to be knowledgeable on technical matters and also possesses a 
deep understanding of policy issues. If that's not enough, Senators 
Craig and Warner say she is top notch so I'm happy to give her my 
support.
    Ms. Svinicki, you and I discussed my belief that our Nation needs 
new nuclear plants to help meet our growing demand for energy. 
Revitalizing this industry is a complicated effort and the NRC's role 
in ensuring public health and safety, and protecting the environment, 
is an integral part. ``Safety First'' isn't just a cliche it must be 
the top priority. However, the NRC must also carry out its 
responsibilities in a predictable and efficient manner. Balancing these 
objectives will be quite challenging for the Commission considering the 
growing number of applications for new plants it will receive over the 
next few years and the long-awaited receipt of a repository application 
next year. It is my expectation that, as a Commissioner, you will 
endeavor to achieve an appropriate balance.
    Recently, there have been lapses in the NRC's efforts to openly 
communicate. Open communication is fundamental to maintaining the 
public's trust and the trust of this committee. I encourage you to 
learn from these mistakes. My door is always open and I hope you visit 
often.
    The nominees testifying before us are qualified individuals and I 
hope they receive fair consideration based on their qualifications 
rather than unrelated politics over which they have no control.

    Senator Barrasso. Thank you very much, Senator Inhofe, 
Madam Chairman. I am very pleased to serve on this committee. 
The issues that we deal with here are very important to the 
State of Wyoming. Wyoming is the Nation's largest coal-
producing State, and it is a debate and role that we take very 
seriously. In the Wyoming legislature, as you mentioned, I was 
chairman of the Transportation Highways Committee with 
jurisdiction over the highways. I am looking forward to working 
with this committee on those issues of highway funding, 
infrastructure.
    Finally, not a day goes by in Wyoming when we don't talk 
about the endangered species, Endangered Species Act. The law 
continues to have a profound impact on the people of Wyoming. 
We are very concerned about the environment, all of the issue 
of public works. So I am looking forward to working hard with 
you and following up in the great tradition of Senator Craig 
Thomas.
    Senator Warner. Madam Chairman?
    Senator Boxer. Yes, Senator Warner, before I call on you, I 
wanted to say something to our newest member.
    Welcome. We welcome you here. We look forward not only to 
getting to know you but your staff and this committee. I am 
trying to bring a feeling that this isn't about partisanship, 
because you know, the role that we play, and you pointed out 
just some of the areas, from the environment to public works. 
Originally when I came to the Senate, I thought, why do they 
marry those two together? It seemed so strange. But at the end 
of the day, I think they need to go together. Because in my 
view, you take your State, the beauty of your State is really 
the engine of your economy, the beauty of that State. To 
preserve it and do it in the right way and allow the job growth 
and the infrastructure to be built in the right way to 
accommodate that is so key. So we really want to welcome you.
    Senator Warner, do you want to add a word of welcome?
    Senator Warner. I just wanted to say that this outstanding 
individual who stepped up to take the place of our beloved 
colleague we lost has such an engaging personality and 
diversity of interests. I make a prediction here and now he 
will be warmly received on both sides of the aisle. 
Extraordinary man, and we thank you for coming.
    Might I add a word on behalf of the nominee, Mr. Laverty?
    Senator Boxer. Certainly.
    Senator Warner. Yesterday, I had the opportunity to sit 
down and visit with him. I thought, you know, another sort of a 
perfunctory call on a Senator. But it turns out that both of us 
started our careers in the Forest Service as young men, working 
on the trails and fighting the fires and just loving the 
national forests, all forests, for that matter. I am just 
extremely pleased to see such a distinguished nominee from the 
President to come up and take on this job.
    But what perplexes me is why anyone would give up a job as 
State Director of all the parks in one of the most beautiful 
States to come down here and do this daily combat.
    [Laughter.]
    Senator Warner. Good luck to you, my friend.
    Thank you, Madam Chairman.
    Senator Boxer. Thanks, Senator.
    OK. Just to let you know where we are going here with 
opening statements, we are now going to go to Senator 
Voinovich, followed by Senator Barrasso, if he has an opening 
statement today, followed by Senator Isakson. Then we will hear 
from our distinguished nominees.
    Senator Voinovich.

STATEMENT OF HON. GEORGE VOINOVICH, U.S. SENATOR FROM THE STATE 
                            OF OHIO

    Senator Voinovich. Thank you, Madam Chairman.
    John, I welcome you to this committee also. I think the 
fact that Senator Barrasso has had experience on the State 
level is very, very important. Too often I think that this 
committee fails to recognize the relationship between what we 
do on the Federal level to what is happening in our States. 
John, we are looking forward to having that perspective brought 
to our attention as often as possible.
    I welcome our two nominees. Thank you for your willingness 
to serve. I am sure my colleagues know, I am very interested in 
the management of our Federal Government and its work force. 
Finding the right people with the right skills to put them to 
work at the right time and place is extremely important to the 
future of our Nation.
    The Subcommittee on Clean Air and Nuclear Safety has 
oversight responsibility for the NRC. Madam Chairman, Senator 
Carper and I are also very interested in the nominees to the 
NRC. We think it is important. We need Ms. Svinicki on that as 
soon as we possibly can, and maybe we can work something out 
with Mr. Jaczko.
    Senator Boxer. We are hoping so.
    Senator Voinovich. The industry today, the nuclear 
industry, is pursuing new power plants for the first time in 
decades. I think the best information I have, we have proposed 
28 reactors from 12 companies. At the same time, the Agency is 
going to have to deal with a wave of retirements. More than 40 
percent of the people who work there are eligible to retire. So 
we are going to really need some attention in that NRC to human 
capital.
    I had the opportunity to meet Ms. Svinicki last week. We 
had a frank discussion about her background and her regulatory 
philosophy, the fact that she has had such glowing tributes 
from Senator Warner and Senator Craig is also something that 
all of us should take into consideration. I came away from that 
meeting with her that she has the breadth and depth of 
experience and energy in environmental policy as well as 
nuclear technology that will serve her as a good member of the 
NRC.
    I think the fact that you have also had extensive 
experience here in the Senate working for two distinguished 
individuals also is going to give you insight into how this 
place works. I think you will be a better member of the NRC as 
a result of that experience.
    Senator Boxer. Thank you so much, Senator Voinovich.
    Senator Barrasso, do you have an opening statement?
    Senator Barrasso. No, Madam Chairman, but I did notice that 
everyone else's name tag said Senator and mine said Mister.
    [Laughter.]
    Senator Boxer. Who is responsible, staff? That is an error. 
We will make sure that is corrected.
    Senator Barrasso. If it had said Doctor, Madam Chairman, I 
would have understood.
    Senator Boxer. I understand. We will make sure we correct 
that.
    Senator Isakson.

 STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Isakson. Thank you, Madam Chair. I too want to 
welcome Dr. Barrasso, who is a very engaging, articulate 
individual. As many old men as there are around the Senate, we 
need another doctor in the house. We are glad to have you 
today.
    I have had the privilege of meeting both the nominees. Both 
of them paid a visit to my office, I am very grateful for that 
and had a great time talking to them. I have an acute interest, 
as the members of the committee know from previous testimony, 
in the nuclear issue and expansion of nuclear energy. I think 
with the challenges that we have before us vis-a-vis climate, 
carbon and all those things, the capacity of nuclear is the 
best and most efficient that you can find to deal with those 
issues. We need to do everything we can to promote it.
    I too was very impressed with Ms. Svinicki in our interview 
and I look forward to hearing the questions today and your 
answers. Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    Why don't we start with you, Kristine, and please, if you 
can summarize in 5 minutes, and we'll put the remainder of your 
statement in the record.

 STATEMENT OF KRISTINE L. SVINICKI, NOMINEE FOR MEMBER OF U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you very much.
    Madam Chairman, Ranking Member Inhofe and committee 
members, it is an honor to appear before you today as the 
President's nominee to be a member of the U.S. Regulatory 
Commission. Even though Senator Warner has admonished me not to 
be too humble, I will say that I am humbled by the kind words 
and support of both Senator Warner and Senator Craig. Their 
support of me far exceeds, in my view, any meager service it 
has been my privilege to provide to them over the past 10 
years. I am deeply grateful for the trust they have resided in 
me as a member of their staff, and for the unique and wonderful 
opportunities to serve that have accompanied that trust.
    I also want to express my appreciation to the staff of this 
committee for their professionalism and to my many colleagues 
in the Senate. Although my family was not able to be here 
today, I have many members of my Senate family here, and I 
appreciate their support and encouragement.
    I appreciate also the time of the committee members who 
have met with me throughout this process to discuss this 
position and my nomination. Hearing the views of the members of 
this committee and of other Senators on nuclear policy is very 
instructive to me. If I were confirmed, I would seek to 
continue that communication.
    In preparing for my appearance here today, I reviewed the 
statements of previous Commissioners during their confirmation 
hearings. I was struck by a common theme in their statements. 
Each nominee stated their belief that they had been nominated 
to the Commission at an unprecedented and uniquely challenging 
moment in the Commission's history. I feel similarly both 
honored and challenged by my nomination.
    Over the next 2 years, in addition to its responsibility 
for regulating the continued safe operations of nuclear 
reactors and the many material licensees, the NRC expects to 
receive, as has been referenced by committee members, 
applications for new plants as well as applications to extend 
licenses and to increase power output of existing reactors. To 
meet this increasing workload, the NRC has embarked upon a 
significant effort to increase the size of its technical work 
force and to expand its office facilities. At the same time, as 
has also been noted, the Commission will be experiencing the 
retirement of many of its most experienced staff.
    Throughout this very dynamic and demanding period, the 
Commission and its staff must, in my view, not only maintain 
regulatory stability but also strive to meet the performance 
metrics the Commission has outlined for itself with respect to 
the timeliness of reviews of new applications, while continuing 
to hold itself to very high standards of performance. This 
combination of operational and organizational challenges is 
daunting by any measure.
    If confirmed, I am eager to confront these challenges and 
will commit myself fully to contributing to the continued 
success of the Commission. Madam Chairman, I have worked in 
Government service at the State and Federal level for nearly 20 
years. While I honor the choice of those working in the private 
sector, I have made a very different and conscious choice to 
remain in public service. The work I have done in the Executive 
and Legislative branches, in technical positions at the 
Department of Energy, and subsequently as an advisor to 
Senators here in the Senate has provided the opportunity to 
participate in some of the most compelling energy, 
environmental and national security challenges confronting the 
Nation.
    I believe that my career up to this point has prepared me 
for the challenge of serving as an NRC commissioner. If the 
Senate acts favorably on my nomination, I am eager to apply my 
skills and experience in this new capacity.
    In conclusion, I would note that the NRC is charged with 
protecting the public health and safety, which I believe to be 
a sacred trust between the people and their Government. 
Consequently, the accountability of an NRC commissioner is 
first and foremost to the public she serves. If confirmed by 
the Senate, I would approach my duties as commissioner with 
this as my core principle.
    That concludes my statement, and I look forward to your 
questions.
    [The prepared statement of Ms. Svinicki follows:]
 Statement of Kristine L. Svinicki, Nominee for Member of U.S. Nuclear 
                         Regulatory Commission
    Madam Chairman, Ranking Member Inhofe and Committee Members, it is 
an honor to appear before you today as the President's nominee to be a 
member of the U.S. Nuclear Regulatory Commission (NRC). I am humbled by 
the kind words and support of Senator Warner and Senator Craig. Their 
support of me far exceeds any meager service it has been my privilege 
to provide to them over the past 10 years. I am deeply grateful for the 
trust they have resided in me as a member of their staff and for the 
unique and wonderful opportunities to serve that have accompanied that 
trust.
    I also want to express my appreciation to the staff of this 
committee for their professionalism and to my many colleagues in the 
Senate. Although members of my family are spread across the country and 
were not able to be here today, I appreciate the presence of many 
members of my ``Senate family''. Their support and friendships have 
been the foundation of any achievements I have had during my service as 
Senate staff.
    I appreciate the time of the members of the Committee who have met 
with me throughout this process to discuss this position and my 
nomination. Hearing the views of the members of this committee, and of 
other Senators, related to nuclear policy has been very instructive to 
me. If confirmed, I would seek to continue this communication.
    In preparing for my appearance here today, I reviewed the 
statements of previous Commissioners during their confirmation 
hearings. I was struck by a common theme. Each nominee stated their 
belief that they had been nominated to the NRC at an unprecedented and 
uniquely challenging moment in the Commission's history. I feel 
similarly--both honored and challenged.
    Over the next 2 years, in addition to its responsibility for 
regulating the continued safe operation of the existing 104 commercial 
nuclear reactors in this country and approximately 4,500 materials 
licensees, the NRC expects to receive numerous combined license 
applications for the construction of new nuclear power plants, as well 
as additional applications to extend the licenses and to increase the 
power output of existing reactors. To meet this increasing workload, 
the NRC has embarked upon a significant effort to increase the size of 
its workforce and to expand its office space. At the same time, the 
Commission will be experiencing the retirement of many of its most 
experienced staff.
    Throughout this very dynamic and demanding period, the Commission 
and its staff must not only maintain regulatory stability, but also 
strive to meet the performance metrics the Commission has outlined for 
itself with respect to the timeliness of review of new applications, 
while continuing to hold itself to very high standards of performance. 
This combination of operational and organizational challenges is 
daunting by any measure. If confirmed, I am eager to confront these 
challenges and will commit myself fully to contributing to the 
continued success of the Commission in fulfilling its obligations to 
the Nation.
    I have worked in government service, at the State and Federal 
level, for nearly 20 years. While I honor the choice of those working 
in the private sector, I made a different and very conscious choice to 
remain in public service. The work I have done in the executive and 
legislative branches, in technical positions at the Department of 
Energy and, subsequently, as an advisor to policy makers here in the 
Senate, has provided the opportunity to participate in some of the most 
compelling energy, environmental, and national security issues 
confronting the Nation. I believe that my career up to this point has 
prepared me for the challenge of serving as an NRC Commissioner. If the 
Senate acts favorably on my nomination, I am eager to apply my skills 
and experience in this new capacity.
    The NRC is charged with protecting the public health and safety, 
which I believe to be a sacred trust between the people and their 
government. Consequently, the accountability of an NRC Commissioner is 
first and foremost to the public she serves. If confirmed by the 
Senate, I would approach my duties as Commissioner with this as my core 
principle.
    This concludes my statement. I look forward to your questions.
                                 ______
                                 
       Responses by Kristine L. Svinicki to Additional Questions 
                           from Senator Boxer
    Question 1. What will you do as an NRC commissioner to ensure that 
oversight of materials licensing is improved?
    Response. I understand the Commission is looking at a variety of 
ways to strengthen the materials licensing process including 
consideration of site visits, web-based licensing systems, increasing 
the tamper-proofing of licenses, and red teaming/testing the licensing 
process. If confirmed, I would be eager to examine these proposals, as 
well as others such as examining the required procedures before a 
supplier ships a source to a license holder, as part of a comprehensive 
evaluation of ways to improve the materials licensing process.

    Question 2. The NRC does not require an inspection of the license 
applicant prior to issuing a license for a Category 3 radioactive 
sealed source. Other States, such as Maryland, have determined that 
pre-license inspections are necessary. Do you think the NRC and 
agreement States should have the same requirements?
    Response. I have not been briefed on the current basis for the 
differences in procedures between the Commission and the agreement 
States in processing applications to possess Category 3 sealed sources. 
If confirmed, I would examine the basis for these differences and 
scrutinize the justification, if any, in light of the results of the 
GAO investigation. Although States may have unique circumstances which 
are reflected in their procedures, it would seem reasonable that best 
practices, as were demonstrated in Maryland's process, should be 
encouraged.

    Question 3. Will you support pre-license inspections for Category 3 
radioactive sealed source materials?
    Response. I have not been briefed and consequently do not fully 
understand the basis for not requiring pre-license inspections for 
Category 3 radioactive sealed sources in non-agreement States. If 
confirmed, I pledge to acquaint myself fully with this issue and take 
part in Commission review of this requirement.

    Question 4. Will you support and encourage the NRC's efforts to 
create a web-based licensing system? If so, would you support including 
Category 3 radioactive sealed materials into any such system created by 
the NRC?
    Response. If confirmed, I will support and encourage the timely 
development and implementation of a web-based licensing system and will 
evaluate further the inclusion of Category 3 radioactive sealed 
materials into such system, as the Commission considers ways to 
strengthen controls over these radioactive materials.

    Question 5. I understand you have worked in the Department of 
Energy's Civilian Radioactive Waste Management Office. As an employee 
in that office, please explain what your involvement was in 
transportation and waste disposal issues as they relate to Yucca 
Mountain.
    Response. Between May of 1994 to December of 1996, I worked as an 
engineer in the DOE Office of Civilian Radioactive Waste Management, 
Office of Storage and Transportation. The engineering position I filled 
was responsible for collecting technical information related to 
federally-owned radioactive waste, such as high-level radioactive waste 
produced by defense programs, waste arising from the environmental 
remediation of DOE cleanup sites, and spent nuclear fuel created in 
research programs at DOE national laboratories, and assuring that 
sufficient information on each of these waste forms existed in order to 
evaluate the transportation and disposal of such waste, should such 
waste eventually require deep, geologic disposal.

    Question 6. What is your view on whether DOE and NRC should move 
forward with the Yucca Mountain project as it is currently envisioned?
    Response. As directed by Congress, the Nuclear Waste Policy Act 
requires the DOE to submit a license application to the NRC for the 
establishment of a geologic repository at Yucca Mountain and requires 
the NRC to review and act on this application within 48 months of 
receipt. If confirmed, I would support the NRC in fulfilling its 
obligations under this law, which is to receive and process this 
application in an objective and timely manner, on the basis of the 
facts before it.

    Question 7. Several applications for new nuclear facilities are 
expected to be received by the NRC in the coming years. What role do 
you see the NRC playing in addressing waste disposal issues that these 
new facilities will face?
    Response. In my view, the obligation of the NRC is to act as an 
impartial arbitrator; making decisions based on the safety and security 
of licensed activities while executing the roles assigned to it under 
law. As I understand it, the Commission relies upon its confidence that 
this country will continue to make progress on the development of 
disposal capacity as called for in the Nuclear Waste Policy Act. If 
confirmed, I believe my duty would be to ensure that any waste 
generated by a plant could be stored safely and without significant 
environmental impact as the Nation works toward the implementation of 
the waste disposal policies laid out in current law.

    Question 8. Do you expect licenses for new facilities to be 
approved regardless of the status of Yucca Mountain?
    Response. If confirmed as a Commissioner, I would judge each 
application coming before the Commission on its merits. Based upon my 
experiences as Senate staff, I know that resolving nuclear waste 
disposal issues is essential to the Nation. If confirmed, I believe my 
duty would be to ensure that any waste generated by a plant could be 
stored safely and without significant environmental impact during such 
time as the Nation works toward the implementation of the waste 
disposal policies laid out in current law.
                                 ______
                                 
       Responses by Kristine L. Svinicki to Additional Questions 
                        from Senator Lautenberg
    Question 1. The transportation of nuclear waste could pose a 
serious national security, environmental and health risk to the 
communities which the waste passes through while transporting. How 
would you evaluate these risks when making decisions about the future 
of the Yucca Mountain application?
    Response. As required under the Nuclear Waste Policy Act, 
transportation of materials to a deep geologic repository must be 
conducted in packaging developed and licensed to the NRC requirements 
contained in 10 CFR Part 71. These standards require the evaluation and 
analysis of the transportation packaging against accident, fire, and 
flooding scenarios. The NRC also shares responsibility with the U.S. 
Department of Transportation for the safe carriage of these materials 
over the Nation's highways. If confirmed, I pledge to evaluate closely 
the safety and security aspects of the transportation of nuclear 
materials and to work closely with DOT to ensure that protecting the 
public and environment remains paramount.

    Question 2. The Oyster Creek nuclear facility in New Jersey will 
turn 40 years old in 2009, and the re-licensing decision for this 
facility is a very controversial issue. Would you give me your view on 
the future of Oyster Creek, specifically, as well as how you would 
approach re-licensing for older nuclear facilities?
    Response. Although I am not familiar with the details of the Oyster 
Creek application, in my view a similar question must be answered at 
Oyster Creek and in all other license renewal projects: can this plant 
be operated safely beyond its initial licensing period and on what 
basis can we be confident that this safety is assured? This is a 
decision that must be made on a case-by-case basis, impartially, under 
the Commission's regulations, and on the available scientific evidence. 
Safety should be the highest priority. If confirmed, I would pledge to 
evaluate such matters based on the record before the Agency.

    Question 3. The NRC has allowed radioactive waste to build up at 
the Shieldalloy Metallurgic Corporation in Newfield and now plans to 
allow them to leave 28 thousand cubic meters of radioactive waste at 
the decommissioned site. Can you assure me that, if confirmed, you will 
review this plan and work to have this radioactive waste removed?
    Response. Although I am not familiar with the specifics of this 
situation, if confirmed, I commit to familiarizing myself with this 
plan and reviewing the adjudicatory record before the Commission.
                                 ______
                                 
      Response by Kristine L. Svinicki to an Additional Question 
                          from Senator Cardin
    Question. We are all aware of the fact that GAO investigators 
posing as businessmen in West Virginia were able to obtain an NRC 
license which, once manipulated, allowed for the purchase of enough 
radioactive material to make a dirty bomb. Investigators attempted to 
purchase similar radioactive materials in Maryland, a State which has 
its own licensing process. The GAO withdrew its application when the 
State informed them numerous checks including an on-site interview were 
needed before the license was granted. The process in Maryland was 
shown to be decidedly more thorough than the NRC process. How will you 
ensure that all 34 States that conduct their own licensing procedures 
do so in a comprehensive manner that is commensurate with practices 
which have proven successful?
    Response. If confirmed, I would pledge to review the best practices 
of all the agreement States and make sure they are communicated among 
the agreement States. I would further work to understand the 
differences between the procedures of the Commission and the agreement 
States, and the justification, if any, for such differences. In my 
view, Maryland should be commended for the vigilance it demonstrated in 
overseeing the issuance of material licenses in its State.
                                 ______
                                 
       Responses by Kristine L. Svinicki to Additional Questions 
                         from Senator Voinovich
    Question 1. One of the things that Senator Carper and I have been 
stressing is the need for the NRC to improve and be more proactive in 
its public relations efforts. The recent communication problems on the 
part of the Agency associated with the GAO sting operation and the 
spill of highly enriched uranium at a nuclear fuel facility do not bode 
well to increase the public's trust in the Agency. I would like to hear 
your thoughts on how a regulatory agency such as NRC can improve in 
this area.
    Response. Through public outreach and information initiatives, I 
believe the NRC can strengthen its role both as a credible source of 
information related to regulated nuclear activities as well as an 
educator of the public more generally about regulatory processes and 
radiological safety. While not a technology advocate, the NRC should 
seek to increase public confidence by building greater awareness of its 
inspection and oversight programs and by communicating its findings in 
a clear and understandable manner to interested stakeholders and the 
public in general. Further, the Commission must be prompt and 
forthcoming, at all times, in its communications to the Congress.

    Question 2. There has been a lot of talk of building new reactors 
in this country. What do you think are the major road blocks to getting 
these licensed and built? What would you do to try to help solve these 
problems as a Commissioner?
    Response. I believe that the principal challenges to getting new 
reactors licensed and built are access to financing and credibility of 
the regulatory process. The NRC is responsible for only one of these 
challenges--the regulatory process. By completing its reviews in a 
timely and transparent manner, the NRC will increase public confidence 
in the regulatory process. As the NRC gains experience with the 
regulatory process and timelines for new reactor applications that the 
Commission has laid out for itself, I would pledge, if confirmed, to 
continually review and seek to improve the Commission's internal 
processes, while keeping safety and security always as the top 
priority.

    Question 3. You and I briefly discussed about human capital being a 
significant challenge not only with the NRC but affecting both the 
public and private sectors including the electric utilities, component 
manufacturers, government agencies, and national laboratories. I am not 
convinced, however, that government agencies and the industry are 
taking the problem seriously enough. I am interested in any suggestions 
you might have on how the government-industry-academia can work 
together more effectively to meet this challenge.
    Response. As outlined in the sober assessment of the National 
Academy of Sciences report, ``Rising Above the Gathering Storm: 
Energizing and Employing America for a Brighter Economic Future,'' the 
scientific and technological building blocks critical to our economic 
leadership are eroding at a time when many other nations are gathering 
strength. The report makes a number of recommendations to increase 
America's talent pool by improving science and mathematics education. 
Through my current responsibilities on the Senate Armed Services 
Committee staff, I am familiar with science and technology educational 
programs initiated by the Department of Defense, reaching as deep as 
middle school science programs and extending up to graduate 
fellowships. The Department is currently gathering data on the 
sustainability of the impacts of its outreach to middle school and high 
school students. I am also aware that the NRC has authorities, provided 
under the Energy Policy Act of 2005, to fund scholarships and 
fellowships in return for service with the NRC. Although I am not 
familiar with the extent of NRC resources for these scholarship 
programs, if confirmed, I would endeavor to continue to follow the 
results of all of these programs, as well as others in government and 
industry, with the intent of finding approaches to address this 
strategic national vulnerability.

    Question 4. Going forward, NRC's relationship with other Federal 
agencies and State/local governments will be absolutely critical in 
accomplishing its mission. I would like to hear your thoughts and plans 
on how you intend to work at this issue.
    Response. As demonstrated by both the attacks of September 11, 
2001, as well as natural disasters such as Hurricane Katrina, our 
Nation must improve its ability to marshal the entirety of our 
government resources in response to events such as these. Reviews by 
the Government Accountability Office and other commissions have found 
uneven progress in this regard, and not on a pace sufficient for the 
vulnerabilities we face. Although I have not been briefed on the 
details, I am aware that the NRC is a part of operational drills and 
government-wide exercises to test our preparedness and inter-agency 
coordination. If confirmed, I would participate in these efforts with 
the intent of strengthening this coordination and the mechanisms which 
support it.

    Senator Boxer. Thank you so much.
    Mr. Laverty, why don't you go ahead, take us to a whole 
other world for a moment, and then we will ask questions of 
both nominees as each Senator wishes.

    STATEMENT OF LYLE LAVERTY, NOMINEE FOR THE POSITION OF 
    ASSISTANT SECRETARY FOR FISH, WILDLIFE AND PARKS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Laverty. Thank you, Madam Chair, Senator Inhofe and 
distinguished members of the committee. It is truly an honor 
for me to appear before you today as I seek your confirmation 
to become the Assistant Secretary of the Interior for Fish, 
Wildlife and Parks.
    I began my professional journey over four decades ago in 
the mountains of northern California, along the Klamath River 
in Orleans. It was there that I brought my new wife and we have 
spent four decades together. My wife is able to join me here 
this morning, as is my brother-in-law and my niece and nephew. 
My nephew, Ryan Struck, is scheduled to be deployed to Iraq in 
mid-September. So I am honored to have him here.
    Senator Boxer. We would ask if they could all stand.
    Mr. Laverty. Thank you very much.
    Senator Boxer. The young man who is going to Iraq, would 
you just raise you hand. We say thank you, Godspeed, and we 
will all do what we can to make sure that you are safe when you 
are there and get home as fast as you can.
    Mr. Laverty. Thank you, Madam Chair.
    Just a little bit of background. I completed my 
undergraduate degree at Humboldt State with a Bachelor in 
forest management and security, a Masters in public 
administration from George Mason University. I am a registered 
professional forester in California and a certified forester 
with the Society of American Foresters.
    As Senator Warner mentioned and Senator Craig, I have 
worked across the country for the past 35 years as a career 
employee with the U.S. Forest Service, and most recently, 5 
years as the director of Colorado State Parks. Through a 
variety of leadership assignments, I have really come to 
develop a profound understanding of the importance of the 
harmony and balance between good public resource policy and 
successful management of America's natural resources.
    In 1999, I led the Agency's effort to develop an integrated 
strategy to develop a response to the hazardous fuel conditions 
across the national forests. This strategy became then the 
foundation of the National Fire Plan, which was in fact 
supported by the Congress and funded after the catastrophic 
fires of 2000. I was subsequently asked to lead the Agency's 
implementation of that National Fire Plan and did so through 
2001.
    Since the enactment of the Endangered Species Act, I have 
been involved in a variety of project design, implementation 
and coordination of natural resource management activities that 
truly integrate the protection of habitat with the goal of 
recovering species. I say the goal of recovering species, 
because that is a very, very critical part.
    As a regional forester in the Rocky Mountain region, I 
worked with the U.S. Fish and Wildlife Service and the Division 
of Wildlife in the recovery lynx. Ten years ago, I served on 
the Interagency Grizzly Bear Committee, that we were involved 
in the coordination of the activities to support the recovery 
of the grizzly bear in the Yellowstone ecosystem. As a forest 
supervisor of the Mendocino National Forest in California, I 
worked with the Fish and Wildlife Service as well as the 
Department of Fish and Game to manage that complex habitat of 
the spotted owl, the southern portion of the spotted owl.
    Madam Chair, if confirmed, I am going to commit my energy 
to the stated purposes of the Endangered Species Act, to the 
mission of the National Wildlife Refuge System and those laws 
and regulations supporting, under the jurisdiction of the U.S. 
Fish and Wildlife Service. I will work aggressively with other 
agencies, tribes and States, tribal land owners and other non-
governmental organizations to further our country's 
conservation goals.
    I am aware of the many challenges and unique opportunities 
facing this position. I have read closely and studied the 
Inspector General's report on the allegations associated with 
Julie McDonald. One of the principal leadership 
responsibilities of this position is to distinguish between 
questions of science and questions of policy, and all of you 
have articulated that very, very clearly. I believe that 
science is the foundation of sound public policy.
    I am committed to ensuring the scientific integrity is 
maintained and scientific determinations are accurately and 
clearly communicated to policymakers. I believe that leadership 
is an active responsibility. As I worked with fire commanders 
in my past, it is very, very clear that the importance of 
presence is the essence of leadership. I believe that the 
presence provides that forum for communications and 
conversations to determine, are we doing what we said we would 
do. Doing what we said we would do is the essence of trust, and 
I am committed to earn the trust from you.
    If confirmed, I have several actions that I want to share 
with you that I will take. I will be happy to expand on these 
in the questions. First of all, I would invite the solicitor 
and the designated agency ethics officer to brief the entire 
staff of this unit, to talk about the rules and regulations as 
it relates to the protection and disclosure of information 
received by that office.
    Second, I will ensure that the staff understands the 
importance and the difference between questions of science and 
questions of policy. Third, I will establish a code of conduct 
for employees to treat people with dignity and respect. It 
became very, very clear to me in that report that that is one 
of the fundamental roles of that position.
    Fourth, I will actively engage with the Agency, in 
conversations with agency leaders, both Director Bomar and Dale 
Hall, and agency employees, and talk about performance 
expectations. I will monitor performance. I believe that is the 
function of leadership and it is the essence of what this 
position is about.
    Finally, I want to commit to work personally and closely 
with all of you. I believe that being open and transparent in 
terms of conversations to hear from you and what are the 
concerns and also then be able to share with you what my 
concerns are, I want to have that kind of a dialog and 
relationship with you.
    I am honored to be here, and I look forward to the 
conversations and being able to answer any questions you might 
have for me. Thank you.
    [The prepared statement of Mr. Laverty follows:]
   Statement of Lyle Laverty, Nominee for the position of Assistant 
Secretary for Fish, Wildlife and Parks, U.S. Department of the Interior
    Madam Chair, Ranking Member Inhofe, and Members of the Committee, I 
am truly honored to appear before you today as I seek your confirmation 
to become the Assistant Secretary of the Interior for Fish and Wildlife 
and Parks. As a career resource manager and public servant, the 
opportunity to be entrusted with the care and stewardship of the icons 
of America's heritage, is the ultimate experience. I want to thank both 
President Bush and Secretary Kempthorne for their confidence in me as 
shown through my nomination.
    My personal connection with America's great outdoors begins in 
Montana nearly 60 years ago. Born and raised in California, I have 
vivid memories of our family adventures to Montana to visit my 
grandparents, aunts, uncles, and cousins in Missoula. I remember to 
this day catching my first trout in the crystal waters of Holland Lake. 
I remember waking up in Yellowstone as my grandmother chased bears out 
of our campsite banging on a big metal pot. I remember helping my dad 
set up our tent in the floor of Yosemite. I remember the ranger hikes. 
I remember watching the ``firefall'' during evening interpretative 
programs. Little did I realize how significant these personal 
connections would be in creating a lasting imprint on my being.
    I began my professional journey in public service over four decades 
ago in Orleans, California, a small rural mountain community. It was to 
this remote ranger station on the Klamath River that I brought my bride 
Pam, who has shared this wonderful journey and is with me here today. 
Our two children, Lori and Chad, experienced lives growing up on ranger 
stations as we moved throughout this great country.
    I completed my undergraduate education with a Bachelor of Science 
in Forest Management from Humboldt State University in Arcata, 
California, and subsequently received a Masters degree in Public 
Administration from George Mason University in Fairfax, Virginia. In 
1997, I was selected to participate in the Executive Leadership Program 
at Harvard University's John F. Kennedy School of Government.
    I have worked across the country as a 35-year career employee with 
the U.S. Forest Service and most recently as the Director of Colorado 
State Parks. I have gained a rich understanding of the values of 
America's natural resources and the importance of being a good steward 
of these resources. I have had the opportunity to participate in many 
assignments which have afforded my working with a broad range of 
stakeholders and government officials on a variety of natural resource 
management issues. Through a variety of line and leadership 
assignments, I clearly understand the importance of harmony of sound 
public resource policy with practical field operations.
    In 1999, I was asked to lead a team to respond to the GAO Report 
which identified the need for an integrated strategy to address the 
hazardous fuel conditions on National Forest lands. The strategy became 
the foundation for the National Fire Plan, funded by the Congress after 
the catastrophic fire season in 2000. I was subsequently asked to lead 
the Agency's implementation of the National Fire Plan and did so 
through 2001. I mention my experience with the National Fire Plan, 
because it models the importance and complexity of working with various 
organization, agencies and jurisdictions to implement natural resource 
policy issues on a consensus basis. To that end, I am committed to 
working with each of you and the States to protect and promote our 
nation's fish and wildlife conservation heritage.
    Late in 2001, I accepted the position of Director of Colorado State 
Parks. The Colorado State Park system is different than most State park 
systems in America. More than 85 percent of the division's operating 
budget comes from revenue other than general fund. Sustaining a quality 
system of parks required the application of sound business principles 
as well as consistently providing quality guest services.
    I have enjoyed a professional journey that has provided broad and 
extensive resource management challenges in. Through these varied 
experiences, I have a combination of qualifications, perspectives and 
insights that I believe will add value to an excellent team of 
professional resource managers. Over the course of my career, I have 
worked with individuals, volunteers, organizations, State agencies and 
numerous Federal agencies. Living and working in both rural and urban 
communities across this country, I have learned that solutions to 
challenges facing our natural resources are developed through 
conversations with all interested parties. The wonderful relationships 
I have developed over the course the years has resulted in the support 
of my nomination by a wide variety of organizations across the country.
    My career has afforded me the opportunity to work in a variety of 
communities and ecosystems across the country, in the Douglas fir 
forests of northern California, the Cascades of Oregon and Washington, 
the southern portion of California's Coastal Range, the great Rocky 
Mountains of the intermountain west, as well as our nation's capital. I 
have found through these experiences that people care deeply about 
America's resources.
    For over three decades, I have been involved in the design, 
coordination and implementation of natural resource management 
activities, integrating protection of habitat, and working towards the 
recovery of species. As Regional Forester, I worked with the U.S. Fish 
and Wildlife Service and the State Division of Wildlife on the recovery 
of the lynx in Colorado. Last year, Bruce McCloskey, Director of 
Colorado's Division of Wildlife, proudly showed pictures of young lynx 
kittens, successful indicators that agencies working together can make 
a difference in the recovery of species. Ten years ago I served on the 
Interagency Grizzly Bear Committee, coordinating agency activities to 
support the recovery of the grizzly bear in the Greater Yellowstone 
Ecosystem. Today, that grizzly bear population has been delisted, 
another indicator that agencies working together, seamlessly, with 
public support, can make a difference in the successful recovery of a 
species.
    As Forest Supervisor of the Mendocino National Forest, I worked 
extensively with the U.S. Fish and Wildlife Service staff and the 
California Department of Fish and Game in managing the complex southern 
portion of the spotted owl habitat. As Associate Deputy Chief, I 
coordinated policy implications of hazardous fuel treatment projects 
with U.S. Fish and Wildlife Service leaders. The results, evidenced on 
the ground, demonstrate again that working together we can protect and 
enhance habitat and protect people and resources by reducing the risk 
of catastrophic wildland fire. Most recently, as the Director of 
Colorado State Parks, with the U.S. Fish and Wildlife staff and 
Colorado Division of Wildlife staff, we designed and implemented 
wildland fire mitigation projects in lynx habitat in the urban 
interface of Colorado's Front Range, again working together to 
effectively manage habitats for species recovery, as well as satisfying 
multiple resource objectives.
    Madam Chair, if confirmed, I will commit my energy to achieve the 
stated purposes of the Endangered Species Act, the mission of the 
National Wildlife Refuge System, and the laws and regulations under the 
jurisdiction of the U.S. Fish and Wildlife Service. I will work 
aggressively with other Federal land management agencies, States, 
tribes, private land owners and other nongovernmental organizations to 
further our country's conservation goals. I am aware of the many 
challenges and unique opportunities associated with this position. I am 
committed to work closely with each of you to provide the oversight and 
stewardship of the resources entrusted to me in this position.
    Thank you again Madam Chair, Senator Inhofe, and Members of the 
Committee for considering my qualifications and for the opportunity to 
appear before you this morning.
    I will be happy to answer any questions you may have.
                                 ______
                                 
           Responses by Lyle Laverty to Additional Questions 
                        from Senator Lautenberg
    Question 1. As Assistant Secretary for the Department of Interior, 
which oversees the Fish and Wildlife and Parks Service, what would you 
do to ensure that science is not further suppressed or improperly 
edited for political reasons?
    Response. If confirmed, here are the actions I will take to ensure 
that science is not suppressed or improperly edited.
    Immediately, I will ask the Solicitor's Office and the Designated 
Agency Ethics Officer to brief the staff on the rules and regulations 
with regard to the protection of and disclosure of information received 
by the Office.
    I will affirm that discussion with my pledge to staff and employees 
of both agencies, the National Park Service and the U.S. Fish and 
Wildlife Service, reiterating my personal commitment to the ethical 
standards of conduct and behavior articulated by Secretary Kempthorne, 
including not sharing non-public information with outside parties.
    Second, I will ensure that my staff understands the difference 
between questions of science and questions of policy. I will explain 
that my policy staff is not to ask for or direct any change or 
modification in scientific findings by either agency.
    I will explain that any contacts they have with field personnel at 
either the Fish and Wildlife Service or the National Park Service 
regarding questions of science must and will be through established 
organizational channels, and only with my prior approval. I will 
actively monitor agency performance with and through both agency 
leaders.
    Third, I will establish a code of conduct for employees to treat 
people with dignity and respect. Abusive behavior toward anyone will 
not be tolerated.
    Fourth, I will actively engage in conversations with agency 
leaders, Directors Bomar and Hall, and agency employees to monitor 
performance. I will take whatever steps are necessary to ensure that 
organizational performance is meeting expectations. I will make it 
clear that:
    <bullet> Contact between my policy staff and agency personnel on 
management or regulatory actions will go through established 
organizational channels;
    <bullet> I expect bureau directors to personally ensure agency 
decisions are supported with credible scientific information that, as 
appropriate, is peer reviewed;
    <bullet> My policy staff is not to ask any of the agency staff to 
change scientific findings;
    <bullet> No staff, policy or career, are to act abusively toward 
any person, and if there is any indication of inappropriate behavior, 
it is the Director's responsibility to inform me immediately;
    <bullet> Bureau directors are to personally advise their management 
teams of my expectations for each of them regarding these principles; 
and
    <bullet> Any violations of these principles are to be reported 
immediately to me personally by the agency director for appropriate 
action.
    In the event of any violation of these principles, I will not 
hesitate to ensure that appropriate action is taken.

    Question 2. Will you commit to me that you will not participate in 
any efforts to alter, edit or redact the work of scientists as 
Assistant Secretary for the Department of the Interior? Will you commit 
to report to this committee any actions that you see taking place that 
violates the integrity of government scientists?
    Response. In my previous answer, I provided my plan to ensure that 
scientific integrity in our decisionmaking processes is protected. This 
includes ensuring that my staff understands the difference between 
questions of science and questions of policy. I will explain that my 
policy staff is not to ask for or direct any change or modification in 
scientific findings by either agency.
    I will explain that any contacts they have with field personnel at 
either the U.S. Fish and Wildlife Service or the National Park Service 
regarding questions of science must and will be through established 
organizational channels, and only with my prior approval. I will 
actively monitor agency performance with and through both agency 
leaders.
                                 ______
                                 
  Responses by Lyle Laverty to Additional Questions from Senator Boxer
    Question 1. The Fish and Wildlife Service recently removed both the 
bald eagle and the Midwest grey wolf population from the list of 
threatened and endangered species. This is one of the Endangered 
Species Act's great success stories.
    The Act defines an endangered species as one imperiled ``throughout 
all or a significant portion of its range.'' But a recent Interior 
Department opinion limits this test to ``the geographical area 
currently occupied by the species.''
    If that test had been used 35 years ago, wouldn't it have made it 
difficult to protect species like the bald eagle and grey wolf, whose 
``current range'' at the time was largely limited to Canada and Alaska?
    Do you support that interpretation of the Act?
    If you do support the new test, how do you square it with the clear 
intent of Congress that the Endangered Species Act must protect species 
like the bald eagle when they became endangered in places like 
California and Maryland?
    Response. I am not familiar with the recent Departmental opinion, 
so I cannot speak to the characterization of it in your question. 
However, I will commit to you that, if confirmed, I will review that 
opinion and discuss its content and conclusions with our attorneys to 
ensure that it fulfills the intent of Congress in enacting the 
Endangered Species Act.

    Question 2. The 2007 Intergovernmental Panel on Climate Change 
report concluded that 40 percent or more of all species may become 
extinct if global warming continues and we reach a 4 to 5 C average 
global temperature increase.
    Do you accept the IPCC's conclusion that there is a 90 percent 
certainty that most global warming over the past 50 years is human-
caused, and that global warming's impacts on wildlife are a major 
concern? If confirmed, how would you address this issue?
    Response. I acknowledge and respect the increasing scientific 
knowledge regarding global climate change. The IPCC has made 
significant contributions to the scientific information on global 
climate change. If confirmed, I pledge to work with all of the bureaus 
within the Department of the Interior, particularly the U.S. Fish and 
Wildlife Service, the United States Geological Survey, and the Bureau 
of Reclamation to increase our understanding of the impacts of global 
climate change on fish and wildlife and to work to identify ways that 
we can address those impacts.

    Question 3. As part of the restructuring due to funding shortages, 
the Fish and Wildlife Service is shifting staff and resources to ``high 
priority'' refuges. The Wildlife Refuge System prides itself on having 
at least one wildlife refuge in each of the 50 states, and one within 
an hour's drive of every major U.S. city.
    How should the FWS appropriately determine which State's fishing 
spot is highest priority, and which local wildlife viewing site is 
lower priority? Doesn't this mean that some refuges are going to be 
unmanned? What do you plan to do about this?
    Response. While I have not had the opportunity to fully study the 
staffing situation in the National Wildlife Refuge System, I do 
understand the importance of the System to the public and to our fish 
and wildlife resources. If confirmed, I will commit to being an 
advocate for the system, and to work with the U.S. Fish and Wildlife 
Service to help ensure that our national wildlife refuges are 
effectively managed to meet mission obligations and to continue to 
provide visitors with quality wildlife-dependent recreation 
opportunities.

    Question 4. Records from the State Board of Great Outdoors Colorado 
(GOCO), which provides State funds to the Department, raised questions 
about the adequacy of the Department's financial system. News reports 
in the Denver Post in February and March of this year and internal 
documents and other information indicate that, for example, ``the 
accounting/finance staff of Parks at all levels was unable to 
articulate basic accounting principles involving the GOCO bills.'' I 
understand that an audit of the department was initiated at least in 
part in response to these problems. Please describe in detail what the 
accounting problems were that GOCO identified, what specific actions 
you took to address those issues both before and after GOCO identified 
them, your role in recommending or approving the audit, the specific 
issues to be reviewed in the audit, and what results if any have been 
reached in that audit.
    Response. The following deficiencies were identified and addressed 
as part of GOCO's concerns for accounting: underperforming staff were 
identified, GOCO's data needs were clearly identified, and proper 
quality controls were created to ensure the long term success of this 
relationship.
    A number of events transpired in late 2005 and early in 2006 that 
significantly impacted the Division's GOCO accounting and reporting 
activities. Since none of these factors were reflected in the Denver 
Post article, it is important to provide the context leading to the 
actions that have addressed the issues.
    The Division experienced several significant changes in the 
Financial Services (FS) unit. Based on very serious performance 
deficiencies, the CFO began addressing performance accountability. The 
Controller and a lead accountant both resigned their positions early in 
2006. The CFO had to rely on the GOCO accounting tech to perform the 
necessary GOCO billing and reconciliation tasks until more senior 
accounting personnel could be hired. After a lengthy hiring process, 
the new Division Controller assumed his duties in June of 2006. The CFO 
immediately assigned him the tasks of evaluating and improving the GOCO 
billing and reconciliation process.
    Under the ``Guiding Principles'' that the GOCO board enacted to 
define the Division's policy in how to prioritize, spend and account 
for GOCO funding resources, there was a stipulation that ``old'' GOCO 
money had to be spent before ``new'' money could be spent.
    This triggered a massive effort on the part of State Parks in 
December 2005/January 2006 to reallocate expenditures at Cheyenne 
Mountain from newer GOCO grants to older grants and Lottery funds. It 
was imperative for the process to be completed to release funding so 
that construction on Cheyenne Mountain could proceed without delay. 
Parks staff worked closely with GOCO on this process and brought it to 
a successful conclusion. This was a complex task with a large number of 
grant budget lines, contract awards, task orders and payments involved, 
where the process and the results would ultimately have to meet both 
GOCO and audit standards.
    The Division's CFO scheduled meetings with GOCO's CFO and 
accounting staff to solicit input from GOCO on how to improve the 
reporting processes, given the Division's personnel situation. The 
desired outcome was to define the reporting requirements--different for 
base and large scale projects--that would meet GOCO's reporting and 
audit needs.
    A meeting with GOCO staff in August 2006 produced a substantive 
agreement on this issue and the Division worked diligently to produce 
these work products, both interim and permanent. The products included 
a temporary set of ``payment adjustment record'' forms for the Cheyenne 
Mountain Golden Triangle contract, which was due and delivered to GOCO 
in September 2006. The fact that a difference existed between some 
invoices submitted by contractors and what was ultimately paid to the 
contractor caused GOCO great frustration. In the summer of 2006, this 
became a major issue ultimately involving the DNR Controller.
    The DNR Controller communicated in a letter to GOCO on June 20, 
2006 that it is not uncommon in the construction industry for 
disagreements to arise regarding project completions. Payments are 
determined on the basis of the project manager's assessment of the 
quality and acceptability of materials furnished, work performed, and 
the rate of progress of the work, all interpretations of the plans and 
specifications, and the acceptable fulfillment of the contract. 
Payments are not made on the basis of the contractor's subjective 
assessment of these same issues as reflected in invoices. Thus, 
payments are made on those items where there is agreement and, where 
there is no agreement, the balance deferred and subjected to further 
resolution and/or negotiations.
    The DNR Controller concluded, based on the terms of the Memorandum 
of Understanding (MOU) between the Division and GOCO that the MOU only 
requires a monthly billing statement to GOCO, identifying the total 
expenditures to date, along with copies of the Colorado Financial 
Reporting System (COFRS) accounting reports to support the amount 
billed to GOCO. She also concluded that, since COFRS is the official 
financial record of the state, information contained in the accounting 
reports should be sufficient for GOCO to make the determination that a 
vendor has been paid by the Division, and that reimbursement from GOCO 
to the Division is due. In a follow-up e-mail from GOCO's CFO, she 
referenced additional documentation requirements contained in the 
Legacy/Large Scale grant agreements--correctly so--and State Parks has 
responded to these additional requirements.
    State Parks agreed to develop a single format for pay sheets that 
would include a ``payment adjustment record'' and be used on all 
legacy/large scale funded grants such as Cheyenne Mountain, St. Vrain 
and future projects. Division staff continues to consult with GOCO 
staff in the development process of format to assure that GOCO 
accounting data needs are met. The Division Controller met with the 
GOCO CFO and accounting staff the week of November 13, 2006 to develop 
even closer communications and cooperation in defining these and other 
needs.
    Another work product requested by GOCO and delivered by the 
Division was expenditure by fund and year for Cheyenne Mountain since 
the inception of the project. This was requested by GOCO to review 
match funding for legacy/large scale projects. This report was 
generated in short order and delivered in its final form to GOCO on 
October 5, 2006, with a positive reception by GOCO's CFO. On September 
13, 2006, the Division's CFO and GOCO's CFO agreed that GOCO would pay 
the May and June bills with the understanding that the Division would 
be providing with the July and subsequent billings, a summary billing 
statement with a formula error corrected. The Division's GOCO 
Accounting Tech and seasonal staff spent considerable time 
(approximately three weeks) and effort, in an attempt to isolate and 
correct the formula error, without success. At that time the Division's 
CFO decided that it would be better to re-develop the billing summary 
in an MSAccess format. This would eliminate the error and add 
additional reporting capabilities to adjust to possible future GOCO 
requests for changes in reporting detail and formats.
    GOCO was informed of this decision and the impact it would have on 
receiving the July and subsequent GOCO billings completed and 
submitted. It should be noted that the summary spreadsheet with the 
formula error was developed by Division GOCO accounting staff no longer 
with the Division.
    Just after this effort began, in the third week of September, the 
Division's GOCO Accounting tech had to attend to a critical family 
issue that demanded her full attention. She was out of the office for 
nearly four weeks. Although she tried to work on the report at home as 
time would permit, the effort was seriously delayed. Again, GOCO was 
informed of the situation and the consequential impact on the 
Division's ability to meet its time commitment on the billing summary 
report and associated July and subsequent billing submittals. The 
Division eventually met with GOCO to present the draft MSAccess report 
on Monday, November 13, 2006 and to discuss the submittal of July, 
August, September and October billing reports.
    The CFO has met with his FS Management team to define and pursue a 
strategy to cross train available staff and build process redundancy 
within the organization. He has also expressed his intent to add a much 
needed quality control and assurance component to the GOCO billing 
process. The addition of another budget/accounting FTE in fiscal year 
2007-8, requested in the Division's fiscal year 2007-8 FTE Decision 
Item, and recently approved by the legislature, will add much needed 
staff to implement these changes.
    After the review and a subsequent meeting on November 16, 2006, 
with the Division's Controller, GOCO's CFO agreed to accept the 
Division's July, August and September billings with the currently 
available backup and to manually adjust any inconsistencies as done 
previously. The Division would get the substantial outstanding revenue 
recorded in COFRS, and GOCO would get the funds transferred and off 
their books. The Division agreed to have the billings completed and 
submitted to GOCO by November 30, 2006. The Division's October GOCO 
billing would be submitted no later than December 14, 2006.
    The Controller worked essentially full time to resolve the GOCO 
impasse and develop a billing and reconciliation process, with 
supporting documentation and reports to meet GOCO's billing 
verification, reconciliation and audit requirements. He was assigned 
the primary lead on all GOCO accounting and financial interface and 
communications events and activities. The Controller has successfully 
resolved the GOCO accounting and reconciliation issues, which led to 
successful approval and release of the fiscal year 2007-2008 spending 
plan.
    In summary, filling critical positions, such as the Division's 
Controller and Lead Accountant with skilled and highly qualified 
individuals, combined with defining reporting needs with GOCO has 
successfully addressed these concerns. In a February meeting with the 
Executive Director, prior to the GOCO Board meeting, I recommended that 
we ask the State Auditor to conduct a performance audit to ensure that 
the Division's internal controls were in order. This recommendation was 
a proactive effort to review our existing internal control systems and 
determine if there were other improvements the Division should take, 
such as training, staffing, and project management.
    I understand the audit team has met with Department of Natural 
Resources and Division personnel to define the scope of the audit. The 
audit team is currently assessing the Division's established internal 
controls as well as the financial management systems and processes. 
Since the team is in the fact finding state, I am not aware of any 
results, conclusions or recommendations.

    Question 5. GOCO has stated that the Department's Controller has 
``extensive personal relationships with senior management within State 
Parks that may cloud the situation and provide a perception issue from 
an audit perspective. To complicate this is that the current CFO also 
had a personal relationship with the Director. It has been our 
experience during our annual financial audits that these types of close 
personal relationships raise red flags and can impede internal control 
effectiveness.'' Please respond to this statement and please explain 
whether you participated in the hiring process for the Department's 
Chief Financial Officer or Controller, and whether you knew either of 
the individuals prior to interviewing or selecting them for these 
positions.
    Response. The meaning of ``extensive personal relationships'' as 
referenced in the GOCO statement is not clear to me. I do attend the 
same church as the Division's Controller and CFO. I see them on most 
Sundays before or after worship services. From my association with both 
of these individuals, I believe they both demonstrate the highest 
standards of professional and personal integrity.
    I was the selecting official for the Chief Financial Officer. The 
State of Colorado has a very rigorous and structured personnel testing 
process. The Department's Human Resources division manages this entire 
process. Human Resources issue vacancy announcements and screen the 
applicants, to determine which candidates meet the minimum 
qualifications. Following that screen and evaluation, Human Resources 
administer and score a written test. The test questions are developed 
by the Human Resources division based on the position description.
    Following the scoring and evaluation of the written test, the 
candidates go through an oral test, with a panel of Human Resources and 
subject matter experts from other divisions in the Department. From 
this panel, generally the top three candidates are then submitted to me 
for selection. Individuals involved in this evaluation panel included 
the Department's Budget Office and the Department's Controller and the 
Department's Director of Human Resources. This panel developed the 
recommendations and submitted three candidates for me to consider. It 
was at this point, and this point only, that I saw the selection 
options. I had no knowledge of which candidates successfully passed the 
written test. I had no knowledge of which candidates the oral testing 
panel interviewed. After interviewing the three candidates, I selected 
the Chief Financial Officer. I considered his qualifications, 
background, and the needs of the Division based on the position 
description.
    The Division's Controller followed the same process described 
above. After interviewing the top three candidates, the Chief Financial 
Officer asked the staff of the Financial Services Unit to make the 
final selection of the Division Controller. They did so.

    Question 6. In April 2007, the Denver Post reported that you 
purchased a horse to participate in activities sponsored by an elite 
social club, and that after officials questioned this purchase you sold 
the horse to your son-in-law. Please explain in detail the purpose of 
the purchase and sale, how the purchase and sale process and amounts 
paid for these articles is consistent with State purchasing, bidding 
and sale of asset rules, and what advice you received from state 
officials and from whom regarding the purchase and sale.
    Response. The horse was not purchased to participate in activities 
sponsored by an elite social club, but by the Division of Parks and 
Outdoor Recreation to establish an equestrian program for a variety of 
park operations, including visitor contacts in our urban parks as well 
as backcountry patrols in our mountain parks. The primary objective of 
the mounted ranger patrol was to provide officer presence to the 
busiest areas of our large metro parks. Other park and law enforcement 
agencies have found that a mounted ranger provides a highly effective 
tool for positive visitor contacts.
    The value of a mounted ranger has been tested throughout the 
country in metropolitan communities and urban parks. Large park areas, 
like Chatfield and Cherry Creek, with large open space and extensive 
trail systems are settings where mounted rangers can patrol more 
effectively than rangers on foot or with motorized vehicles. Other park 
units and law enforcement agencies reinforce the effectiveness of 
visitor contact with a mounted ranger.
    In 2004 the Division conducted a series of town meetings throughout 
the State to receive public input regarding state park facilities and 
services. Based on input the Division received during the town 
meetings, the public ranked trails and trailheads for hiking and 
horseback riding as a very high priority. Having park managers ride 
with equestrian organizations in the field to discuss State park 
trails, trailheads and corrals is extremely effective, as we have 
learned from participation in similar activities with hikers, ATV and 
snowmobile organizations.
    The purchase was consistent with all State procurement regulations. 
I personally met with the Department Controller and discussed the 
equestrian program in the Division's park operations. We discussed the 
program benefits and advantages of a mounted patrol in our metropolitan 
parks. Subsequent to that discussion the purchase order was reviewed 
and approved by the Department of Natural Resources Contracting 
Officer.
    Following a budget briefing, a member of the budget committee 
expressed a comment regarding the horse that I felt could possibly put 
some of the Division's programs at risk. I discussed the comment with 
the Division's executive team and determined selling the horse was the 
appropriate action.
    The subsequent sale of the horse was consistent with state property 
disposal regulations. The sales contract was reviewed and approved by 
the Department's Contracting Officer and Controller.

    Question 7. Earlier this year, we joined other colleagues in a 
letter to Secretary Kempthorne expressing concern about weakening 
changes to the rules for the Endangered Species Act which the 
Department was considering.
    It is my expectation that before any regulatory changes, including 
any changes that would amend the ESA's key protection, such as habitat 
designations, the listing process, scientific standards, and 
interagency consultation, are proposed, the subcommittee will be 
briefed on them and given a chance to review them well in advance of 
any formal proposed rulemaking. Do I have your commitment to do so?
    Response. As I mentioned to your staff during our meeting last 
week, I am a believer in open dialogue. While I have been generally 
briefed on past versions of the draft proposal, I look forward to 
learning more about it. I am also not aware that a decision has been 
made to finalize or publish anything to date. I am aware that U.S. Fish 
and Wildlife Service Director Hall has provided general briefings on 
this issue and I advised that it is the Department's practice to brief 
committees of jurisdiction in advance of all significant actions, 
including key points of major rulemaking proposals. If confirmed, I 
will ensure that this is done for the Committee, should the Department 
decide to issue proposed revisions to these rules.
                                 ______
                                 
    Responses by Lyle Laverty to Additional Questions from Senator 
                               Lieberman
    Question 1. Earlier this year, we joined other colleagues in a 
letter to Secretary Kemptorne expressing concern about weakening 
changes to the rules for the Endangered Species Act which the 
Department was considering.
    It is my expectation that before any regulatory changes, including 
any changes that would amend the ESA's key protection, such as habitat 
designations, the listing process, scientific standards, and 
interagency consultation, are proposed, the subcommittee will be 
briefed on them and given a chance to review them well in advance of 
any formal proposed rulemaking. Do I have your commitment to do so?
    Response. As I mentioned to your staff during our meeting last 
week, I am a believer in open dialogue. While I have been generally 
briefed on past versions of the draft proposal, I look forward to 
learning more about it. I am also not aware that a decision has been 
made to finalize or publish anything to date. I am aware that U.S. Fish 
and Wildlife Service Director Hall has provided general briefings on 
this issue and I advised that it is the Department's practice to brief 
committees of jurisdiction in advance of all significant actions, 
including key points of major rulemaking proposals. If confirmed, I 
will ensure that this is done for the Committee, should the Department 
decide to issue proposed revisions to these rules.

    Question 2. The endangered species program is currently 
experiencing at least a 30 percent vacancy rate and in some areas that 
rate may be close to 50 percent, undermining its ability to recover 
species, respond to stakeholders in a timely fashion, and list species 
in need of protection. How will you address the backlog of candidate 
species proposed for listing, but still unprotected by the Endangered 
Species Act? How will you address the delays in the development and 
implementation of species recovery plans?
    Response. I have not had the opportunity to review in detail the 
staffing situation in the FWS's Endangered Species Program. However, I 
believe that it is important to be responsive to stakeholders and work 
with them to undertake conservation measures that prevent the need to 
list species, as well as to implement conservation measures designed to 
recover those species that have been listed under the Endangered 
Species Act. If confirmed, I commit to working with the FWS to better 
understand and address the challenges facing the Endangered Species 
Program.

    Question 3. The Interior Department has recently been troubled with 
the interference of professional staff and the undermining of 
scientifically based decisions. You said science should drive policy 
and that you would set minimum performance and ethical standards to 
ensure that these sorts of actions do not continue. Can you 
specifically outline these standards and the steps you plan to take to 
make certain that the best available science is used to drive the 
implementation of the Endangered Species Act?
    Response. If confirmed, here are the actions I will take to ensure 
that science is not suppressed or improperly edited and that the best 
available science is used in our decision.
    Immediately, I will ask the Solicitor's Office and the Designated 
Agency Ethics Officer to brief the staff on the rules and regulations 
with regard to the protection of and disclosure of information received 
by the Office.
    I will affirm that discussion with my pledge to staff and employees 
of both agencies, the National Park Service and the U.S. Fish and 
Wildlife Service, reiterating my personal commitment to the ethical 
standards of conduct and behavior articulated by Secretary Kempthorne, 
including not sharing non-public information with outside parties.
    Second, I will ensure that my staff understands the difference 
between questions of science and questions of policy. I will explain 
that my policy staff is not to ask for or direct any change or 
modification in scientific findings by either agency.
    I will explain that any contacts they have with field personnel at 
either the Fish and Wildlife Service or the National Park Service 
regarding questions of science must and will be through established 
organizational channels, and only with my prior approval. I will 
actively monitor agency performance with and through both agency 
leaders.
    Third, I will establish a code of conduct for employees to treat 
people with dignity and respect. Abusive behavior toward anyone will 
not be tolerated.
    Fourth, I will actively engage in conversations with agency 
leaders, Directors Bomar and Hall, and agency employees to monitor 
performance. I will take whatever steps are necessary to ensure that 
organizational performance is meeting expectations. I will make it 
clear that:
    <bullet> Contact between my policy staff and agency personnel on 
management or regulatory actions will go through established 
organizational channels;
    <bullet> I expect bureau directors to personally ensure agency 
decisions are supported with credible scientific information that, as 
appropriate, is peer reviewed;
    <bullet> My policy staff is not to ask any of the agency staff to 
change scientific findings;
    <bullet> No staff, policy or career, are to act abusively toward 
any person, and if there is any indication of inappropriate behavior, 
it is the Director's responsibility to inform me immediately;
    <bullet> Bureau directors are to personally advise their management 
teams of my expectations for each of them regarding these principles; 
and
    <bullet> Any violations of these principles are to be reported 
immediately to me personally by the agency director for appropriate 
action.
    In the event of any violation of these principles, I will not 
hesitate to ensure that appropriate action is taken.
                                 ______
                                 
 Responses by Lyle Laverty to Additional Questions from Senator Cardin
    Question 1. During your tenure as the head of the Colorado State 
Parks system you made a concerted effort to modernize camping and cabin 
facilities. Many attribute the 7.6 percent percent increase in 
attendance at Colorado State Parks in part to these modernizations. In 
Maryland, the Patuxent Wildlife Research Refuge covers 12,900 acres 
between Baltimore and Washington DC. The site is in serious need of 
modernization and repair. How would you work with the Department of the 
Interior and OMB to ensure that Patuxent and sites like it obtain long-
term commitments to facilities improvement?
    Response. As I mentioned during our meeting prior to my hearing, I 
am not familiar with the U.S. Fish and Wildlife Service's facilities 
management plans or its capital/maintenance investment strategy to 
date. However, if confirmed I will work with the Fish and Wildlife 
Service to determine this project's priority within the Service's 
maintenance program. With strong supporting information, I will 
advocate for a strong investment program to support the mission and 
goals of the refuge system.

    Question 2. Smith Island is Maryland's only inhabited island. The 
northern section of the island complex includes the Martin National 
Wildlife Refuge. This refuge is critical for myriad species of 
waterfowl and wildlife. However, accelerating shoreline erosion is 
threatening the refuge as well as the island's population. We have 
secured funding to help ameliorate the immediate problem on Smith 
Island by constructing an offshore segmented breakwater. However, 
continued attention is needed to save the Refuge and the inhabited 
sections of Smith Island. How would you approach the erosion problem in 
Smith Island and areas suffering similar erosion problems? What do you 
believe should be done to save wetlands and underwater Bay grasses such 
as those in the Chesapeake?
    Response. As I mentioned to you in our meeting, I have not had the 
opportunity to review the various concerns that have been raised 
regarding the erosion issue at Smith Island, so I am not in a position 
to comment on specific recommendations regarding this situation. 
However, I do believe that the restoration of wetlands and related 
habitats is important in many areas, including the Chesapeake Bay. If 
confirmed, I will work with the U.S. Fish and Wildlife Service to 
address the conservation and protection of wetlands and other important 
habitat such as underwater Bay grasses in the Chesapeake Bay.

    Question 3. Maryland is working hard to reduce excess nitrogen and 
phosphorus inputs into the coastal byways. Output from the Assateague 
Island National Seashore wastewater treatment plant is a significant 
contributor to the problem. To address this problem, Assateague Island 
National Seashore has been provided funds to make modifications to its 
wastewater treatment plant. However, the process has stalled at the 
Dept. of the Interior. What would you do to make sure that those 
bureaucratic hurdles that remain are successfully surmounted?
    Response. As Assistant Secretary, I understand that ultimate 
responsibility for ensuring that such facilities in parks or refuges 
comply with any applicable state requirements will lie with me. I look 
forward to taking on that responsibility. As I mentioned during our 
meeting, while I am not familiar with the details of this matter, if 
confirmed I will work with the National Park Service to determine what 
has delayed the project and to ensure that it continues to move 
forward. I will work with the National Park Service to examine all 
options to identify available funding or to seek new funding through 
appropriate National Park Service funding programs to complete the 
project.
                                 ______
                                 
 Responses by Lyle Laverty to Additional Questions from Senator Inhofe
    Question 1. Implementation of the Endangered Species Act is very 
important to this Committee. During your career how have you been 
involved in implementing the ESA? What do you believe the role of the 
Assistant Secretary in implementing the ESA?
    Response. Since the enactment of the Endangered Species Act, I have 
been involved in the design, coordination and implementation of natural 
resource management activities that integrate habitat protection with 
the goal of recovering species.
    As a Regional Forester, I worked with the U.S. Fish and Wildlife 
Service and the State Division of Wildlife on the recovery of the lynx 
in Colorado. For the past several years, reintroduced lynx have 
successfully reproduced, an indication that agencies working together 
can make a difference in the recovery of endangered species.
    Ten years ago I served on the Interagency Grizzly Bear Committee, 
coordinating agency activities to support the recovery of the grizzly 
bear in the Greater Yellowstone Ecosystem. Today, that grizzly bear 
population has been delisted, an excellent example that agencies 
working together, seamlessly, with public support can make a difference 
in the successful recovery of species.
    As Forest Supervisor of the Mendocino National Forest, I worked 
extensively with the U.S. Fish and Wildlife Service staff and the 
California Department of Fish and Game successfully managing the 
complex southern portion of spotted owl habitat.
    I believe the role of the Assistant Secretary is to commit personal 
energy and coordinate agency resources to achieve the stated purposes 
of the Endangered Species Act. If confirmed, I will work aggressively 
with other Federal land management agencies, States, tribes, private 
land owners and other nongovernmental organizations to further our 
Nation's conservation goals.

    Question 2. Last year, the Supreme Court in its Rapanos decision 
correctly limited federal regulatory jurisdiction of waters of the U.S. 
The Fish and Wildlife Service oversees several programs that partner 
with landowners, play an important role in the preservation of our 
environment, and are critical to the President's goal of an annual 
wetlands gain. Do you agree that programs like Partners for Fish and 
Wildlife that work collaboratively can be very successful in preserving 
the environment without a confrontational, regulatory approach that 
often leaves landowners feeling that their rights have been violated?
    Response. I completely agree that programs like the Partners for 
Fish and Wildlife program can be extremely valuable in protecting 
habitat. It and other cooperative conservation programs promote 
partnerships with States, landowners, and other citizen stewards to, 
among other things, protect and enhance habitat for threatened and 
endangered species. If confirmed, I will work with U.S. Fish and 
Wildlife Service Director Hall to continue the success of such 
partnership programs.

    Question 3. During the course of your professional career, how have 
you reconciled issues of science and policy?
    Response. As a professional resource manager, I have found that 
issues of science and policy can be reconciled through clear and open 
discussions at the beginning of a project. The leadership role of the 
line officer or project manager is to, at that point, bring all 
parties--scientists and resource specialists--together and clearly 
articulate project objectives and science requirements associated with 
the project site. I have found that, in my past positions, the most 
significant aspect of my role as the deciding officer was ensuring that 
my team was complete and that questions of science and policy were 
openly discussed as the foundation of the project design.

    Question 4. Mr. Laverty, during the question and answer period, you 
made some comments about the Fish and Wildlife Service activities 
regarding a potential penguin listing. Specifically, you said ``they 
are in the process now of gathering public comments on that. That also 
would be expanded into a 12-month status review.'' The FWS announcement 
that the petition to list penguin was found to be warranted was July 
10. You appeared before this committee on July 17. Your response to the 
question about penguins suggests that the FWS has already made up its 
mind to propose listing of these species after only one week of 
official comment and well in advance of gathering any data to assess 
penguin populations, threats to their existence, regulatory mechanisms, 
etc. This greatly concerns me. Can you please provide detailed 
information as to where the FWS is in the process with the penguins and 
explain what information you received that would suggest that the FWS 
will indeed take the next step in proposing to list the penguin 
species.
    Response. During the question and answer period, I unintentionally 
misspoke when commenting about the U.S. Fish and Wildlife Service's 
activities with respect to a potential penguin listing. Under the 
Endangered Species Act, the first step in considering a petition is to 
evaluate the information presented by a petitioner, after which the 
Fish and Wildlife Service is required to make a finding on whether the 
petition provides substantial information to indicate that listing may 
be warranted.
    In fact, with the Fish and Wildlife Service's July 11, 2007, 
publication of a 90-day finding that listing may be warranted under the 
ESA for 10 of the 12 petitioned penguin species, the Fish and Wildlife 
Service is now only in the earliest stages of conducting a status 
review. At this time it is my understanding that the Fish and Wildlife 
Service has not determined whether any or all of these penguin species 
warrant inclusion on the list. Through a 60-day open comment period, 
the Fish and Wildlife Service is gathering information to assist in 
evaluating the status of each penguin species under review and, after 
reviewing public comments, will make a decision as to whether or not it 
should propose to list any of the penguin species based on the best 
available science and commercial data.
    It is my understanding that a positive 12-month finding for any of 
these species, if made, would trigger a second 12-month period for 
public comment and scientific review of a proposed listing rule before 
a final decision is made on whether to designate any or all of these 
species as threatened or endangered.
                                 ______
                                 
          Response by Lyle Laverty to an Additional Question 
                         from Senator Voinovich
    Question. The 2006 National Park System Advisory Board report, 
``Charting a Future for National Heritage Areas'' emphasizes how the 
National Park Service can benefit from welcoming the National Heritage 
Area approach to conserving nationally important landscapes and 
cultures. What approach and strategy will you utilize to implement the 
recommendations in this important report so that National Heritage 
Areas are included within the family of the National Park Service?
    Response. National Heritage Areas support the Department's mission 
to work in partnership with local communities to promote, protect, and 
interpret resources and tell the stories of our national heritage. I am 
familiar with National Heritage Areas in Colorado, and am generally 
aware of the Advisory Board's report and recommendations. I understand 
that the Administration has previously transmitted a legislative 
proposal to provide this program with clear criteria and standards for 
management planning, among other things. If confirmed, I look forward 
to continuing to work with Congress on this very important issue.

    Senator Boxer. Thank you so much, Mr. Laverty.
    We are going to start the questioning period, so people can 
have 5 minutes. I am going to give any Senator that didn't make 
an opening statement 7 minutes, so they can have a little extra 
time.
    Mr. Laverty, your comments are music to my ears. I really 
think the spirit in which you gave them is very important to 
this committee on both sides.
    There was an article July 9, ``U.S. Officials Looking to 
Protect Ten Penguin Species. The Bush administration is 
considering an endangered species protection for ten penguin 
species whose polar habitat is shrinking due to global warming. 
The Fish and Wildlife Service said that listing `may be 
warranted,' and initiated a formal status review which is the 
first step in the process of listing a species. This would put 
the penguins on the same path as the polar bear.'' This is the 
report that I have.
    Are you aware of this? Have you been briefed on this 
situation yet?
    Mr. Laverty. Yes, ma'am, I have.
    Senator Boxer. What do you see the timeframe for both the 
polar bear decision and the penguins decision?
    Mr. Laverty. Madam Chair, there are basically two different 
time lines right now.
    Senator Boxer. OK.
    Mr. Laverty. For the polar bear, the polar was listed as a 
proposed listing and they have received public comments on 
that. The action by the Agency is to come up with a 
recommendation in December. That is on the polar bear.
    Senator Boxer. OK.
    Mr. Laverty. The listing on the penguin as a result of a 
petition was in fact the 90-day listing. They are in the 
process now of gathering public comments on that. That also 
will probably expand into a 12-month status review by the 
Agency.
    Senator Boxer. I see. Very good. Well, thank you for that.
    I want to talk to Kristine. I noticed, and of course all of 
us did, the earthquake in Japan that involved some type of a 
leak from the nuclear power plants there. Without getting into 
whether it is a problem or not, because I certainly don't have 
the facts to know, I am only reading news reports, one of the 
things I noticed in California, and it is just mind-boggling, 
is when these great, big, giant projects come up, for some 
reason, whether they are great big dams or nuclear power 
plants, for some reason, they come up, they are right near 
earthquake faults. I just don't--I think this is something that 
we ought to be concerned about.
    So I guess my question is pretty simple. Would you commit 
that as you look over these applications, and I know that 
Senators Carper and Voinovich will be looking very closely, 
this is their jurisdiction in the subcommittee, and I greatly 
respect that, I wanted to know from you, is this something that 
you will carefully look at as these applications come forward, 
the geological situation, and ask questions from the scientists 
about the earthquake potentials?
    Ms. Svinicki. Yes, Senator, clearly seismic considerations, 
as you've mentioned, are an important consideration, not only 
in your State, but anywhere in the country that we have faults 
and other seismic conditions. That needs to be analyzed against 
both a realistic case and a worst case scenario. Those need to 
be informed decisions.
    Senator Boxer. Thank you so much. My other question is, 
during their investigation, GAO's fake company was unable to 
obtain sealed radioactive sources from the State of Maryland. 
They tried first, they went to Maryland as a sting operation. 
Because the State said a site visit would be necessary before 
materials could be issued.
    Now, the NRC does not require a pre-license inspection for 
a licensee to receive a Category 3 type of radioactive 
material. If Maryland has determined that a pre-license 
inspection prior to receipt of Category 3 materials is 
necessary, why hasn't the NRC? Do you know? If you don't know, 
is this something that you will consider bringing up if you are 
confirmed?
    Ms. Svinicki. Senator, I was able to watch a certain amount 
of the hearing that was conducted on the GAO sting 
investigation. I was exposed to an amount of Commissioner 
McGaffigan's testimony. He was the NRC witness at that hearing. 
I know that he has pledged to look at this issue.
    So it would appear to me as an outsider that it will be 
something that the Commission will be evaluating, since 
Commissioner McGaffigan has made that commitment to do so. If 
confirmed, I certainly would be a part of that.
    Senator, I was reflecting, in your opening comments where 
you talked about national security aspects of nuclear 
materials, I certainly, if confirmed would bring a strong focus 
on our vulnerabilities to my service as Commissioner.
    Senator Boxer. Good. I am very pleased. Just think about 
Senator Warner sitting on your shoulder, because it is just 
ridiculous to think about our rules being weaker than the State 
of Maryland. It blows my mind.
    Last question. I understand you have worked in the 
Department of Energy's Civilian Radioactive Waste Management 
Office. Did you work on transportation and waste disposal 
issues related to Yucca Mountain?
    Ms. Svinicki. Senator, thank you for that question. I want 
to be as clear as I can with the committee. When I worked at 
the Department of Energy I was employed in what is called the 
Office of Civilian Radioactive Waste Management. That is the 
office established under law to administer and develop the 
geologic repository. My work was not in Las Vegas on the Yucca 
Mountain license application, it was in Washington, DC at the 
Department of Energy headquarters.
    I worked transportation packaging. As you had mentioned in 
your opening comments, the safe transportation of these 
materials is so important. Whether a geologic repository opens 
or not, we have to transport materials this week and every week 
very, very safely. I also worked on inventories of defense 
materials that may require deep geologic disposal. Those would 
be materials currently at Department of Energy sites.
    Senator Boxer. So you didn't work directly on Yucca?
    Ms. Svinicki. I did not.
    Senator Boxer. OK, very good. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Kristine, you and I briefly discussed in my office the 
highly enriched uranium spill at the Nuclear Fuel Services 
facility in Tennessee and my disappointment with the NRC's lack 
of communication about the event. In your current capacity as 
staff to the Armed Services Committee, you also understand the 
need to protect sensitive information that could aid our 
adversaries who might want to use it against us.
    If confirmed, will you ensure that the national information 
security needs are adequately protected and balanced with the 
NRC's need to improve public communication? Maybe any other 
comments you might want to make about the Tennessee event.
    Ms. Svinicki. Thank you, Senator. I do recall that we 
discussed the Erwin, TN spill of material and I commented to 
you that it struck me just in reading reports and summaries of 
the event that it was a very serious matter. I had been taken 
aback with something of that seriousness, that the 
notifications were delayed.
    I don't know the cause of the delay in notifying on that 
incident. But I confirmed to you and I would confirm that those 
are the types of matters that I think, if there is any threat 
to public health and safety, that people need to know about.
    I also do acknowledge, as you have mentioned, that post-9/
11, Government-wide, there has been a consideration of what is 
appropriate to post on Websites and the appropriate balance 
needs to be struck. These are difficult issues, to find that 
balance, but I would pledge to do that.
    Senator Inhofe. All right, thank you. We also talked about 
the fact that the NRC is going to be receiving a lot of 
applications under the new reactor licensing program. My 
concern is you don't get bogged down. We want to preserve the 
safety and the security, and we want to have applications 
reviewed efficiently and expediently. I just hope that you will 
do that. Any comments as to your intentions in terms of keeping 
things going?
    Ms. Svinicki. Senator, I recall that we discussed the 
challenges of this matter. I think any time that something 
hasn't happened for many, many years such as the NRC has not 
been confronted with a new license application for so many 
years that this will be challenging process as we move forward, 
not only to continue excellence, as they need to do in 
regulation of current facilities, but to be able to resource in 
terms of people and human resources that they will apply to the 
new applications they are getting. This is going to be a tough 
challenge that I referred to in my statement. The tempo is 
going to go up and they need to continue to do a good job.
    Senator Inhofe. Yes, back some 10 or 12 years ago when I 
chaired the Clean Air Subcommittee, at that time it had been 12 
years since there had been an oversight hearing of the NRC, and 
things were in need of oversight. We actually put deadlines on 
dates. This is something you can't do when you are looking at 
these applications, because no two cases are alike. But I just 
hope that you keep things moving along, because I think we all 
agree that we are going to have to get these things approved.
    Now, Lyle, it was music to my ears when you said something 
about the fact that you want to extend courtesies to these 
people, the stakeholders and other people. This is something 
that you don't see very often and you don't hear from people. I 
am glad that you have.
    One of the programs that you and I talked about that I just 
feel very excited about was this Partners for Fish and Wildlife 
Program. We had hearings out in my State of Oklahoma, Mr. Hall 
was there, and I introduced legislation after that hearing. The 
President has signed it. This is the type of thing that 
Government, in my opinion, should be doing, working with the 
property owners. All so often, they think that someone, if you 
are a landowner, that you are there trying to abuse, you are 
trying to pollute, you are trying to not take care of the 
wildlife.
    But I think this partnership program, that started out as a 
pilot program, is tremendously successful. I would like to hear 
your comments about that partnership in wildlife program.
    Mr. Laverty. Senator, I believe that working with 
landowners becomes the essence in how we are going to manage 
the wildlife resources of this country. A major proportion of 
wildlife habitat is not on Federal eState, but it requires and 
demands that kind of a working relationship with private 
landowners.
    I think we need to do all we can, and I think this is what 
Dale and his group are working on and trying to create that 
kind of an environment, that can make it a working relationship 
with the private landowners to further conservation causes in 
terms of protecting wildlife species and habitats. It becomes 
critically important to be able to have incentives that can 
help landowners do that. It should not be perceived as a 
penalty, if you will, for doing some things to protect wildlife 
habitat. I think this is some of the goals and objectives that 
the partnership program is all about.
    Senator Inhofe. I agree with that. Since my time is running 
out, let me just ask you, you commented that you have several 
actions that you want to take and you named four. Are there 
others? Is your list longer than four?
    Mr. Laverty. Yes, sir. I think first of all, is to be able 
to sit down with the staff and understand kind of the feeling 
of the staff. It has really been under intense pressure. I 
think you need to understand, what is the staff feeling about 
the issues that are facing the staff as it relates to the IG 
report and then look at recommendations and solutions that can 
be driven from a staff perspective.
    The protection of science is absolutely fundamental. I just 
can't say it strong enough that that is the foundation of good 
public policy. You need to have good science. I think Madam 
Chair talked about the importance of having good science. Then 
you debate the policy. I want to be able to help facilitate 
that.
    Senator Inhofe. That is good. Thank you very much. Thank 
you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Carper, you get 7 minutes.
    Senator Carper. Thank you, Madam Chairman.
    To our witnesses, welcome, congratulations on your 
nominations. If I could start with you, Ms. Svinicki. Is it 
true that you once worked for a Member of Congress?
    Ms. Svinicki. I have had the privilege of serving three 
Senators; I currently serve Senator McCain, before that Senator 
Warner and Senator Craig, two members of this committee.
    Senator Carper. That is pretty good. So you have a pretty 
good idea of how we work around here, or don't work, I guess.
    Ms. Svinicki. I do, sir.
    Senator Carper. We don't work well together sometimes. This 
committee I think maybe being an exception to that.
    I want to talk with you a little bit about communications. 
But before I do, I want to reflect back on something the 
Chairman just said regarding the ability of GAO in the scam 
operation to counterfeit a license that would have enabled them 
to acquire substantial amounts of low-level radioactive 
materials that they could cobble together and maybe create 
enough oomph for a dirty bomb.
    I go back to that, I am an advocate of nuclear power, I am 
also an advocate of reducing our dependence on foreign oil. I 
don't know how we reduce that dependence without a whole lot of 
things, more solar, more wind, cellulosic ethanol, biobutanol, 
more energy efficient appliances, more energy efficient cars, 
trucks or vans. I also believe it is impossible to move 
meaningfully toward energy independence without a greater 
reliance on nuclear energy.
    Every now and then, something comes along that gives us a 
scare. We had one of those just a week or so ago with respect 
to the GAO's scam operation. I said at the hearing, which I 
chaired in part, I said that everything I do, I know I can do 
better. I used to implore my cabinet, when I was Governor of 
Delaware, and my staff now here in the Senate, with these 
words, if it isn't perfect, make it better, if it isn't 
perfect, make it better. None of us are perfect. God knows I am 
not, and we all make mistakes.
    The latitude that the Nuclear Regulatory Commission has for 
making mistakes is more narrow than that which falls on the 
rest of us. One mistake, one oversight, one slip in the work 
that the Commission does cannot just create maybe a difficult 
situation in a nuclear power plant, maybe an embarrassing 
situation, what it may do even more is undermine the 
confidence, which has just now I think resurged to support, 
within the population, and within the Congress, confidence and 
support for nuclear energy. So I would just call on you as a 
soon to be new member of the NRC, that you adopt as your own 
this adage of, if it isn't perfect, make it better. Hold the 
folks that you're over, looking over their shoulder, just hold 
them to the very highest standards every single day. Vigilance 
is the watch word. To the extent you can do that, and Senator 
Voinovich, in our role as co-chairs of the Clean Air and 
Nuclear Safety Subcommittee, we will be there with you.
    In fact, we are going to meet tomorrow morning, I believe, 
with the Chairman of the Commission. One of the things we are 
going to talk about, and this is my question, and I will ask 
you just for a brief answer, one of the things we are going to 
talk with him about is communication. When something goes 
wrong, we don't want to read about it in the paper, we don't 
want to hear about it in the news. We want you or the chair to 
be telling us what is going on. We haven't had the kind of 
communications, in all instances, that we need. I would just 
ask for your thoughts in that regard.
    Ms. Svinicki. Senator, thank you for those comments and for 
that question. I think that public confidence in a regulator is 
absolutely essential. I think transparency and communication 
are a keystone in building that confidence. That would be a 
focus of mine if I were confirmed, to increase public 
confidence.
    In the process of my courtesy calls, a question was posed 
to me which was, who has the biggest stake in making sure that 
nuclear power is safe. I think it is proponents of the 
technology who should have the highest standards for safety and 
security of these installations. I agree with that point, and I 
would pledge to you, Senator, if confirmed, to work on 
continual improvement, as you said, if it is not perfect, make 
it better, of communications.
    Senator Carper. All right, thank you.
    Mr. Laverty, congratulations on your nomination. Thank you 
for your willingness to serve. I received a letter from a 
fellow named Charles Saulk, as we call him, Chas, in Delaware, 
he is the director of the Delaware Division of State Parks and 
Recreation. He is someone we hired when I was Governor, we 
hired him to run our parks operation. He wrote to me and really 
denounced your nomination. I happened to be walking by his home 
in Delaware, it is a small State, I was walking by his house 
and he came out on his front porch just to tell me what an 
awful guy you are, and he said, the last person I would support 
would be Lyle Laverty.
    [Laughter.]
    Senator Carper. So what have you done to make him feel that 
way about you?
    Mr. Laverty. Senator, I appreciate the comment. I believe 
that the conversation is focused on the issues related with Ms. 
McDonald and the ethics in the Department. That is what I am 
committed to work on, to do all I can.
    Senator Carper. More seriously, he actually had very 
positive things to say.
    Mr. Laverty. Thank you very much.
    Senator Carper. Maybe I have seen in the letter, and even 
on the front steps of his house, he had good things to say 
about you, about a week ago.
    Mr. Laverty. Chas is good.
    Senator Carper. Chas has worked with us, along with a lot 
of people in our State, to try to make Delaware the 50th State, 
the 50th and last State, to actually have a national park. We 
are the only State in America that has no national park. We are 
not even a unit of a national park. We have been working on a 
process through gathering public opinion in our State, creating 
a proposal that has been endorsed by a congressional 
delegation, submitting it to the Park Service. Mary Bomar was 
by and met with me from the National Park Service last week.
    Lynn Scarlett, Deputy Secretary of the Department, was in 
one of our wildlife refuges with us this last weekend. So we 
had a chance to chat with her.
    Mary Bomar, who is the head of the National Park Service, 
does she report to you?
    Mr. Laverty. Yes, sir.
    Senator Carper. Oh, good. How do you feel about Delaware 
being the only State in America that doesn't have a national 
park?
    Mr. Laverty. I think you ought to have one.
    [Laughter.]
    Senator Carper. I move the nomination----
    [Laughter.]
    Mr. Laverty. There was no other answer, was there?
    Senator Carper. We worked long and hard, we appreciate the 
chance to work with all you guys to finalize and fund the 
feasibility study and move it on. I think standing right behind 
you is Rob Horwath. Rob was good to help us as we were moving 
our feasibility legislation through the House. I acknowledge 
him and thank him for that. We look forward to working with 
you, too. Thanks so much.
    Senator Boxer. Thank you, Senator.
    Senator Voinovich.
    Senator Voinovich. Thank you, Madam Chairman.
    I would like to just followup on comments some of my other 
colleagues have made with this issue of communications and 
transparency, we are in a unique position today where because 
of the Energy Policy Act of 2005, we are ready to launch, well, 
we have 12 applications, for sure, 28 reactors. We are getting 
some good vibes back from the environmental community that they 
are not as opposed to this as they had been in the past, 
because of the fact that they are so concerned about climate 
change and nuclear power doesn't emit these greenhouse gases.
    On the other hand, I think we have to be very careful about 
this communication issue. I was after Nils Diaz, and I have 
talked to Chairman Klein about it, and it just seems they don't 
get it. One thing I would like you to do is comment on that, 
and you have done it so far, but I think we need to really have 
someone hitting this very, very hard. Because I think it does 
hurt the credibility of the Agency and could be the reason why 
some people aren't going to be as supportive as they should be.
    The second thing, and this is something that Senator Carper 
and I are going to probably be talking to Chairman Klein about 
this week, is that we need to make clear to the public that 
these facilities, the 103 reactors, almost 104, in terms of 
earthquakes and that are not, that are not subject to 
earthquakes, in other words, they have been built in areas 
where we are not going to have a Japanese problem.
    So I would like you to just share with us once again your 
attitude toward this communication. We went through Davis-Besse 
here, and it took us a long time to recover from that. I would 
like your thoughts on that, because as I mentioned in my 
opening statement, it is wonderful that you have had the 
perspective from Congress.
    Ms. Svinicki. Thank you, Senator. I appreciate returning to 
this point, because it is such an important one. I would hope 
that with my background and being such a closer observer of the 
most recent policy debates on energy, environment, on the 
resources we will need to meet our future energy needs, I hope 
that I will bring a unique sensitivity to public awareness, to 
communication.
    I probably should not tell a story about Senator Warner, 
but as I reflect upon something in my service with him, it is a 
story related to North Anna, in Virginia, and the consideration 
of the construction of additional units at that site. The 
Senator came back from being in that part of the State and he 
asked me to come over to his office and he said, ``Why is it 
when I go to these communities and I meet with members of the 
public, they are so unaware of what is potentially planned or 
the process that the NRC would use to evaluate such an 
application?'' He expressed to me his frustration about that.
    So I would like to pledge that I would be uniquely 
sensitive to that. I appreciate your focus on it, and if 
confirmed, would work on that very heavily.
    Your second point on earthquakes I think is actually tied 
to the first. I think if the public understood more thoroughly 
how applications are evaluated that their confidence would, for 
better or for worse, at least be an informed decision and 
position that they might take on having these facilities 
located nearby to their communities. So I think that the two 
are linked. The basis would be understanding.
    Senator Voinovich. Are you also aware of the fact that if 
we are going to launch this new effort in terms of nuclear 
power in the country that there is a challenge in regard to the 
issue of human capital?
    Ms. Svinicki. Yes, Senator. As you had mentioned and 
referred to earlier, that is one where I had said in my 
statement it was a daunting challenge and I felt challenged. I 
think the human resource issue is tough. Anyone who would come 
and testify to this committee that that is something that is 
easily dealt with is probably creating a false sense of 
confidence. That is going to be a tremendous challenge. This 
country does not produce the numbers of scientists and 
engineers that we need. NRC would be competing in that same 
environment for those folks. These are very tough problems, 
Senator.
    Senator Voinovich. I would suggest that you again review 
the flexibilities that you have in terms of hiring these people 
and make sure that you have everything you need to get the job 
done. I would be interested in hearing from you, should you be 
appointed. Thank you.
    Ms. Svinicki. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Whitehouse, you have 7 minutes.
    Senator Whitehouse. Thank you very much, Chairman.
    I wanted to ask a few questions of Mr. Laverty, if I may. 
In February 2005, as you probably know, the Union of Concerned 
Scientists surveyed scientists at the Fish and Wildlife Service 
and found pervasive political interference in science at the 
Agency. Two-thirds of the scientists who responded to the 
survey, 303, were aware of cases in which Interior Department 
political appointees interfered with scientific findings. 
Eighty-four scientists reported that they were directed to 
inappropriately exclude or alter technical information from 
agency scientific documents.
    Now, we disagree on a lot of things up in this building, 
and everybody is entitled to their own opinion. But they are 
not to their own science and they are not entitled to their own 
facts. What will you do to guarantee that interior political 
appointees will keep out of improper meddling in scientific 
facts and determinations?
    Mr. Laverty. Senator, thanks for that question. I really 
believe that that has been one of the fundamental elements that 
I have wrestled with as I have read through the Inspector 
General's report and thought about, what would I do in that 
position. I believe it goes back to what I shared earlier with 
the committee in my remarks, you have to set the expectations 
that science is science and that you deal with policy issues as 
a separate conversation. You have to do everything you can to 
secure the culture that presents good science.
    I think that comes from active involvement in working with 
staff, with scientists to create that expectation that this is 
the way science will be developed, and that from the political 
side, we let science come together and then you deal with the 
policy issues as a separate entity. I think you have to 
articulate that, but then you have to constantly monitor, do 
you feel that science is coming up forward. I would like then 
for that Union of Scientists to come back and say, in the 
Department of Interior, science is good science and it is not 
being suppressed. I think that comes from leadership and I am 
willing to jump in to do that. I am committed to doing that.
    Senator Whitehouse. OK. One of the reasons I ask is because 
just a few months ago, the Interior Inspector General wrote a 
fairly scathing report, chastising former Deputy Assistant 
Secretary for Fish and Parks Julie McDonald, who I believe 
would have reported to you had she stayed on, she resigned, as 
you know, a few weeks after the report was released, for 
habitually rewriting and distorting scientific documents. 
Although obviously she has since resigned, that problem of 
political interference remains a serious concern. I urge you to 
try to put that behind the Department.
    One of the things that is very important to the people of 
this country is to be able to count on their departments of 
Government. We are neck deep in a huge disarray over at the 
Department of Justice. Let us not have the Department of 
Interior follow that path. We want to be able to count on you.
    Mr. Laverty. Yes, sir. I am committed to do that.
    Senator Whitehouse. Very good.
    Thanks, Madam Chair.
    Senator Boxer. Thank you so much, Senator. Senator, what I 
would like to do is, Senator Whitehouse, put into the record 
the two-page summary of the Union of Concerned Scientists 
survey, so it appears in the record with the questions. I will 
mention it in my closing statement.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thank you very much for bringing this to the 
committee.
    [The referenced material follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Boxer. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Ms. Svinicki, congratulations. There is a concern of the 
folks in Jackson Hole, WY, it has been a continuous concern and 
it has to do with the issue of potential radiation discharges 
from the Idaho National Energy and Environmental Laboratory. 
What role does the NRC play in that, in ensuring that those 
discharges do not occur, and then there is another role, I 
guess from the Department of Energy, so what role would you 
play?
    Ms. Svinicki. Senator, the Idaho National Laboratory is a 
Department of Energy facility and as such, under the Atomic 
Energy Act, it is not regulated by the Nuclear Regulatory 
Commission. I believe that the State of Idaho would have, in 
terms of air emissions, would have Clean Air Act authority over 
that facility.
    Senator Barrasso. Thank you. I know that you, from your 
work in Idaho, you are certainly aware of the concerns in 
Jackson Hole. I just wanted to express those again today, so 
that in your, while not specifically in the authoritative 
position, you know that those concerns continue from the folks 
in Jackson Hole. Thank you.
    Ms. Svinicki. Thank you.
    Senator Barrasso. Mr. Laverty, if I could, a couple of 
things. I know this committee doesn't have jurisdiction over 
the national parks, but you will. The people of Wyoming do have 
some serious concerns about access to the national parks, 
specifically Yellowstone National Park, and specifically winter 
access. Perhaps in another venue, I would appreciate the 
opportunity to sit and visit with you specifically about winter 
access to Yellowstone Park.
    Mr. Laverty. I would be very, very happy to do that, and 
share with you what the Park Service is doing right now in 
terms of that analysis.
    Senator Barrasso. Thank you.
    A couple of other topics. As you know, brucellosis has been 
eradicated from the State of Wyoming, except in the wildlife 
populations. We have it out in livestock, but not in wildlife. 
It is a problem in Yellowstone and Grand Teton National Park. 
Last weekend, I spent time at the National Elk Refuge visiting 
with the biologists there.
    I think that eradicating brucellosis should be a top 
priority for the Park Service. What is the Park Service going 
to do to help try to eradicate brucellosis and to ensure that 
the disease doesn't really spread beyond the boundaries of the 
Park into our livestock?
    Mr. Laverty. Senator, I know that the Park Service is 
working closely with the State Division of Wildlife, as well as 
the U.S. Fish and Wildlife Service, to look at that very issue. 
My involvement came as my time as a regional forester with the 
Rocky Mountain Region. I know that they are doing that, I can 
get you an update on what the status is of that. I can't tell 
you today what that is.
    Senator Barrasso. Then there are other concerns that if 
Wyoming happens to lose its brucellosis-free status, there is 
clearly economic hardships. Who should bear those, the 
individual, the State or the Federal Government? Because it is 
from the national parks that that would be lost.
    Mr. Laverty. It is one of those wicked questions. It 
becomes one of public policy and how do you deal with that kind 
of an issue. I think it comes from conversations on how do we 
work to correct the issue, rather than trying to patch up what 
happens after.
    I would be happy to get some more information for you on 
that.
    Senator Barrasso. We can visit about that as well.
    Then the last question would have to do with the Endangered 
Species Act. It seems to me that there appears to be a bias 
toward listing species and one against delisting. The Canadian 
gray wolf is a perfect example. The gray wolf flourishing in 
Canada was still reintroduced by the Federal Government in 
Wyoming over a decade ago. In my opinion, all the recovery 
goals have been met a while back, but the species continues to 
be listed as endangered. This is a process that in my opinion 
has dragged on too long, and I read that you have significant 
experience with the grizzly bear. That has successfully been 
delisted. People in Wyoming are delighted with that, but 
believe that that process took too long.
    So what reforms do you suggest to the Endangered Species 
Act, specifically what can be done to streamline the delisting 
process?
    Mr. Laverty. Senator, I think you captured for me what the 
essence of the Endangered Species Act is all about, and that 
is, the recovery of species. We need to do all we can to bring 
folks together so that we can in fact manage, whether it is 
habitat or whatever it might be, that can help recover species. 
That is exactly what happened with the grizzly bear.
    I think with the wolf, I think it just is going to take 
some conversations, again, with the State and Fish and Wildlife 
Service to look at what do we have to do to get to that point 
of recovery of delisting of recovered species. We should 
celebrate those. We just delisted the eagle. I think those are 
significant milestones. We need to be working aggressively to 
protect species, protect habitat.
    But we also should be working on how do we move toward the 
recovery of species. It becomes even a greater challenge, as we 
talked about some of the issues that are in front of the 
country today, with growth and development and climate, all 
these factors are coming together to create an extremely 
complex scenario on how do we manage the species. I am 
convinced that we can do that, and I am happy to work with the 
folks in Wyoming on the wolf. I know that is a big issue.
    Senator Barrasso. Well, it is. Thank you very much, Mr. 
Laverty. I look forward to visiting with you. Congratulations 
on your nomination.
    Thank you, Madam Chairman.
    Mr. Laverty. Thank you, and congratulations to you, sir.
    Senator Boxer. Mr. Laverty, thank you for laying out the 
real serious issues that we all face together. But one of them 
we can control very directly, and that is a staffing crisis at 
the National Wildlife Refuge System. They have lost 230 staff 
between 2004 and 2006 and project a further reduction of 335 
positions, equaling a 20 percent total reduction. The number of 
refuges able to afford non-staff costs including viewing 
platform and trail repairs is in decline.
    So how will you keep the refuges open to visitors and safe 
while protecting resident wildlife in their habitats if you 
don't have the key staff? Will you help us on this? Because I 
just want you to know that this Congress passed a budget that 
would give you the money to restore, but the President has said 
he is going to veto all these appropriation bills.
    So I guess, not to put you in a delicate spot, because that 
is not the purpose of my question, will you let the facts be 
known to those in the OMB and so on, so that they understand 
what happens when we don't have enough staff to run these 
important programs?
    Mr. Laverty. Madam Chair, I believe that again, one of the 
primary responsibilities of this position is to be the advocate 
for these programs.
    Senator Boxer. Good.
    Mr. Laverty. I am also, I should tell you on the other 
side, I understand the challenges of dealing with budgets.
    Senator Boxer. Right.
    Mr. Laverty. Even as I dealt with the National Fire Plan, 
the huge costs of that, and then what that brings to, how do 
you balance that with other programs. I am willing to commit to 
being that advocate and I think the answer to your question, 
again, is one of those very wicked questions, because there is 
not an easy answer. But I think you have to look hard at, are 
there ways that you can in fact provide those services and 
still maintain the quality of what the refuge system is all 
about. It takes hard work to get down into those questions.
    I know that the agencies and the refuge system are looking 
hard at operation plans on how they can in fact manage within 
those budget levels and still provide those kinds of services. 
I would be willing to work with all of you on that issue.
    Senator Boxer. I know this is a very tough thing to ask 
nominees, because you are agreeing to a position and your 
Administration will decide their budget and the Congress our 
budget, and then at the end of the day, we have a give and take 
and you have to deal with what comes out.
    But my view has always been, regardless of whether it is a 
Democratic President or Republican President, it doesn't 
matter, I like the people who are taking these jobs to be 
advocates, so that if Kristine feels we really need to pay more 
attention to the way we give out these permits, as an example, 
so that we don't get really stung, not just a make-believe 
sting, but we get stung by some Al Qaeda operative here, and 
she feels strongly that she will tell the powers that be, look, 
I know you have other considerations, but if we don't have X 
number of positions, we can't do it. That is what I really hope 
to see, because I think that is key here.
    We are going to have some very tough debates. You know, 
nobody likes these arguments. It is very unpleasant. But if you 
are spending, I think it is now $10 billion a month in Iraq, 
and this has nothing to do with your hearing and I don't expect 
any response, there are pressures now on the rest of the budget 
that have to be recognized.
    So let me say that there are just two matters of business 
that I have to ask you, two more questions that are required. 
So first, I will ask you, Kristine, are you willing to appear 
at the request of any duly constituted committee of Congress as 
a witness?
    Ms. Svinicki. Yes, Madam Chairman, I am.
    Senator Boxer. Do you know of any matters which you may or 
may not have thus far disclosed that might place you in any 
conflict of interest if you are confirmed in this position?
    Ms. Svinicki. I know of no such matters.
    Senator Boxer. Thank you.
    Robert, I would ask you the same. Are you willing to appear 
at the request of any duly constituted committee of Congress as 
a witness?
    Mr. Laverty. Yes, ma'am, I am.
    Senator Boxer. Do you know of any matters which you may or 
may not have thus far disclosed that might place you in any 
conflict of interest if you are confirmed to this position?
    Mr. Laverty. No, ma'am.
    Senator Boxer. All right, well, that is very good. I would 
make one last point on the issue that Senator Whitehouse 
raised. He always raises, I think, gets to the heart of the 
matter. I don't know if you have seen this Union of Concerned 
Scientists survey.
    Mr. Laverty. Yes, I have seen it.
    Senator Boxer. You have. I would just point out that they 
talked to 1,410 scientists, went to 1,410 scientists. But in 
any case, half of all scientific staff reported morale as poor 
to extremely poor and only .5 percent, half a percent, half of 
1 percent, rated morale as excellent.
    Now, getting to know you just a little bit through this 
hearing, I think you really do have the temperament and the 
attitude and the love of your work that you can change this. It 
is not going to be easy for you. There have been some problems. 
But I sense that you are bringing that spirit to this work and 
I am pleased to have had a chance to meet both of you.
    If there is nothing else to come before the committee, we 
stand adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]
  

                                  <all>

</pre></body></html>
